<html>
<title> - CLIMATE CHANGE AND GLOBAL SECURITY: CHALLENGES, THREATS AND DIPLOMATIC OPPORTUNITIES</title>
<body><pre>[Senate Hearing 111-207]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-207
 
 CLIMATE CHANGE AND GLOBAL SECURITY: CHALLENGES, THREATS AND DIPLOMATIC 
                             OPPORTUNITIES 

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 21, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

54-243 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 
















                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  











                            C O N T E N T S

                              ----------                              
                                                                   Page

Burke, Sharon, vice president, Center for a New American 
  Security, Washington, DC.......................................    18
    Prepared statement...........................................    21
Gunn, VADM Lee F., USN (Ret.), president, American Security 
  Project, Washington, DC........................................    12
    Prepared statement...........................................    16
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
McGinn, VADM Dennis, USN (Ret.), member, Center for Naval 
  Anaylsis Advisory Board, Lexington Park, MD....................    27
    Prepared statement...........................................    29
Warner, Hon. John, former U.S. Senator, Alexandria, VA...........     5
    Prepared statement...........................................     9

                                 (iii)

  


CLIMATE CHANGE AND GLOBAL SECURITY: CHALLENGES, THREATS, AND DIPLOMATIC 
                             OPPORTUNITIES

                              ----------                              


                         TUESDAY, JULY 21, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:35 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Cardin, Casey, Shaheen, Kaufman, 
Lugar, and Corker.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    I apologize to everybody for being just a little bit late. 
We just had a business meeting of the committee, over in the 
Capitol, which is why the doors were shut, and why the Senators 
weren't here. We just passed out a slew of Ambassadors and 
various Assistant Secretaries, et cetera. So, we're on track, 
and I thank all the committee--subcommittee chairs for moving 
all of those folks as rapidly as they have.
    We're here today to--Senator Lugar, incidentally--I 
normally don't start without him, but he is on his way over--
he's right here. Terrific. Thanks, Dick.
    We're here today to discuss a grave and growing threat to 
global stability, human security, and America's national 
security. As you're going to hear from all of today's 
witnesses, the threat of catastrophic climate change is not 
simply an academic concern for the future; it's already on us, 
happening now. As a matter of fact, I just came from a meeting 
earlier today with the Governor of Colorado, Gov. Bill Ritter, 
who was describing the impact on Colorado, which has lost a 
million acres of pine trees as a consequence of the pine beetle 
that needs a 3-week period each year, at the right time, to 
freeze. And that time is normally in the, sort of, early fall. 
Doesn't happen anymore. So, for the last 6 years or so, the 
absence of that freeze has allowed the infestation to take 
place, and literally millions of acres of forest have been 
lost, not just there, but north up into Canada, Alaska, and so 
forth. So, it is not academic. It is happening now. The effects 
are being felt globally in different ways.
    Earlier this year, a 25-mile-wide ice bridge connecting the 
Wilkins Ice Shelf to the Antarctic land mass shattered, 
disconnecting the shelf from the Antarctic Continent. In 4 
years, the Arctic is projected to experience its first ice-free 
summer--not in 2030, as many earlier predicted, but in 2013. 
So, the threat is magnifying, growing, in the evidence that is 
coming at us.
    Just as 9/11 taught us the painful lesson that oceans could 
not protect us from terror, today we are deluding ourselves if 
we believe that climate change will somehow stop at our 
borders.
    Fortunately, America's most trusted security voices, 
including those here today, have been sounding the alarm. In 
2007, 11 former admirals and high-ranking generals issued a 
seminal report, from the Center for Naval Analysis, where VADM 
Dennis McGinn serves on the Military Advisory Board. They 
warned that climate change is a ``threat multiplier'' with the 
potential to create sustained natural and humanitarian 
disasters on a scale far beyond those we see today. This is 
because climate change injects a major new source of chaos, 
tension, and human insecurity into an already volatile world. 
It threatens to bring more famine and drought, worse pandemics, 
more natural disasters, more resource scarcity, and human 
displacement on a staggering scale.
    Places only too familiar with the instability, conflict, 
and resource competition that often creates refugees, and 
``IDPs'' as we call them--internally displaced persons--will 
now confront these same challenges, with an ever-growing 
population of ``EDPs''--environmentally displaced people. We 
risk fanning the flames of failed-stateism, and offering 
glaring opportunities to the worst actors in our international 
system. In an interconnected world, that endangers all of us.
    Nowhere is the nexus between today's threats and climate 
change more acute than in South Asia, the home of al-Qaeda, and 
the center of our terrorist threat. Scientists are now warning 
that the Himalayan glaciers, which supply water to almost a 
billion people, from China to Afghanistan, could disappear 
completely by 2035. Water from the Himalayas flows through 
India into Pakistan. India's rivers are not only agriculturally 
vital, but they are central to the religious practice of that 
country. Pakistan, for its part, is heavily dependent on 
irrigated farming. Even as our Government scrambles to ratchet 
down tensions and prepares to invest billions to strengthen 
Pakistan's capacity to deliver for its people, climate change 
threatens to work powerfully in the opposite direction.
    Worldwide, climate change risks making the most volatile 
place even more combustible. The Middle East is home to 6 
percent of the world's population but just 2 percent of the 
world's water. A demographic boom and a shrinking water supply 
will only tighten the squeeze on a region that doesn't need 
another reason to disagree.
    Closer to home, there is scarcely an instrument of American 
foreign policy that will be untouched by a changing climate. 
Diego Garcia Island, in the Indian Ocean, a vital hub for our 
military operations across the Middle East, sits on an atoll, 
just a few feet above sea level. Norfolk, VA, home to our 
Atlantic fleet, will be submerged by 1 meter of sea-level rise 
during this century alone. That's if we prevent the West 
Antarctic Ice Sheet and the Greenland Ice Sheet from melting. 
If they melt, you're looking at 16 to 23 feet of sea-level 
increase.
    Now, these problems today, as we sit here now and measure 
them, are not insurmountable, but they are going to be 
expensive in some places, over time, and they risk compromising 
our readiness. The future has a way of humbling those who try 
to predict it too precisely, but, we do know from scientists 
and security experts, that the threat is very real. If we fail 
to connect the dots, if we fail to take action, the simple, 
indisputable reality is that we will find ourselves living, not 
only in a ravaged environment, but in a much more dangerous 
world.
    We're honored to be joined today by a number of experts in 
this field of security, one that has not, frankly, been paid 
enough attention to, and has, in many ways, been absent from 
the debate. Today's hearing is meant to put it front and center 
where it belongs, with people whose credibility, frankly, is 
unmatched.
    We're joined by an old friend, who needs no introduction in 
these halls, but I'll just say a few words. John Warner served 
five terms as a U.S. Senator from Virginia. He enlisted in the 
Navy at the age of 17, served as a sailor in World War II, 
fought as a marine in Korea, and rose to become Secretary of 
the Navy. I had the pleasure of being connected to him during 
that period of time while I was serving in Vietnam. Senator 
Warner became a friend, a colleague for 24 years, and one of 
the great gentlemen of this institution. When he retired--and I 
was rewarded his old office--Senator Warner's gift to his 
fellow Navy man was a binnacle, a tool that sailors use to 
point out the right direction and to light the path forward. 
And, of course, I couldn't ask for a better guide than Senator 
Warner's own words and his life, but now I've got his binnacle 
to remind me about all of those. I'm pleased that he continues 
to use his great credibility to speak directly to the American 
people about the urgency of this issue.
    Each of the other witnesses are equally impressive. Admiral 
Lee--VADM Lee Gunn, a decorated, 35-year veteran of the United 
States Navy, now serving as president of the American Security 
Project--I think, in his last position on Active Duty was at 
the Pentagon, where he was the director of logistics and 
planning.
    Sharon Burke is vice president for natural security at the 
Center for New American Security, where she directs the 
center's work on national security implications of global 
national resource challenges.
    VADM Dennis McGinn is a member of the CNA Military Advisory 
Board and a former Deputy Chief of Naval Operations for Warfare 
Requirements and Programs.
    So, we're lucky to have each of you here today, and 
grateful for your willingness to be here. I'm delighted to turn 
to my ranking member, whose leadership on issues of national 
security are well known to all of us.
    Senator Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    I join you in welcoming our distinguished witnesses, and I 
join you in a special word of greeting to John Warner. We are 
so delighted that he is here today to be with us once again.
    Let me just say that we have talked, in fact, about 
national security matters with John Warner before, when the 
Foreign Relations Committee and the Armed Services Committee 
got together, as we did occasionally, informally--sometimes 
formally. Therefore, we have some preparation for today's 
hearing. To adequately prepare our military forces for future 
threats, we need to understand how climate change might be a 
source of war and, certainly, instability. Climate change 
projections indicate greater risks of drought, famine, disease, 
and mass migration, all of which could lead to conflict. We 
also must ensure that our military infrastructure can adapt to 
new circumstances, a component of which is developing secure, 
alternative sources of fuel.
    The United States is confronted by a cluster of national 
security threats that arise from our economic and cultural 
reliance on fossil fuels. First, we face a current dependence 
on oil, a large percentage of which is controlled by hostile or 
unstable regimes concentrated in the volatile Middle East. And 
this increases our vulnerability to natural disasters, wars, 
and terrorist attacks that can disrupt the lifeblood of the 
international economy, as well as our own. It also means that 
we are sending hundreds of billions of dollars each year to 
authoritarian regimes. This revenue stream emboldens oil-rich 
governments, and enables them to entrench corruption, fund 
anti-Western demagogic appeals, and support terrorism.
    And second, we face the prospect of manipulation of oil and 
natural gas supplies by producers seeking political leverage. 
Nations experiencing a cutoff of energy supplies, or even the 
threat of a cutoff, may become desperate, increasing the 
chances of armed conflict, terrorism, and economic collapse.
    Third, we face longer term prospects of declining global 
oil production. As we approach the point when the world's oil-
hungry economies are competing for insufficient supplies of 
energy, oil will become an even stronger magnet for conflict.
    And fourth, we face international crises arising out of 
drought, food shortages, rising seas, and other manifestations 
of climate change. Any of the threats in this cluster could be 
a source of catastrophe for the United States and the world.
    Now, this list does not necessarily exhaust the 
possibilities, but it underscores one of the dilemmas for 
national security planners; namely, that these threats are not 
identical. Each has a unique time horizon, a unique threat 
intensity. Some steps, such as developing renewable fuels, may 
be useful in addressing the entire cluster of threats, but some 
steps that might be beneficial for climate change are not 
necessarily helpful in addressing other threats in the cluster.
    For example, expanding offshore oil drilling and opening up 
the Arctic National Wildlife Region to oil exploration is 
generally opposed by climate change advocates. Yet, increasing 
domestic oil production could help hedge against midterm energy 
vulnerabilities. Similarly, encouraging nuclear power 
development overseas would produce climate change benefits, but 
the national security risks have to be managed very carefully. 
Further, region by region, military planners are likely to have 
divergent priorities, depending on the immediacy of various 
threat scenarios.
    Thus, our task is not just to anticipate all possible 
national security threats that might emerge in the future due 
to climate change, and our dependence on fossil fuels; we have 
to develop timelines that compare the relative immediacy of 
these threats, and then we have to make rational choices about 
where and how to apply limited national security resources.
    The American military is at the forefront of those working 
to develop energy resources that do not depend on the goodwill 
of unpredictable and sometimes hostile regimes. America is rich 
in coal, as are large developing nations, like China, India, 
and Ukraine. Coal remains a big part of the energy plans of 
many countries. The United States and the world are unlikely to 
be able to deal with climate change without progress on clean 
coal technologies or sequestration of carbon.
    The Pentagon is experimenting with coal-to-gas and coal-to-
liquid technologies to fuel America's military. As the Pentagon 
moves to expand the use of coal fuels, it should simultaneously 
work to develop cost-effective carbon sequestration methods, 
and cooperate with other agencies and entities engaged in this 
endeavor.
    As I have mentioned in previous hearings, as we consider 
how to address climate change we should give priority to steps 
that would simultaneously yield benefits for other United 
States priorities, such as bolstering energy security, 
generating export markets for high-technology industries, 
strengthening our rural economy, improving our air quality.
    I thank Senator Kerry, again, for holding this hearing, 
inviting this distinguished panel, and we look forward to your 
testimony.
    The Chairman. Thank you very much, Senator Lugar.
    Senator Warner, we'll begin with you. Again, thank you for 
being here with us, and we'll just run right down the line at 
the table.

 STATEMENT OF HON. JOHN WARNER, FORMER UNITED STATES SENATOR, 
                         ALEXANDRIA, VA

    Senator Warner. Thank you, Mr. Chairman.
    Interesting feeling, to be seated in this room where I 
spent 30 years of my life, from time to time, introducing and 
participating in the important work of this venerable and 
distinguished committee of the United States Senate, and I 
commend the leadership that it has today, and my two dear 
friends, the chairman and the ranking member, and thank you for 
your kind remarks on my behalf.
    I say to my colleagues, the function of a hearing is for 
witnesses to come forth and try and help better inform the 
Senate through the committee structure and the members in 
attendance. But, listening to those very well prepared, and 
very well delivered opening statements, I can just about ease 
back in my chair, because you've covered much of what I have 
before me. And consequently, as a courtesy to the committee and 
to my colleagues, distinguished panel that they are--and I know 
all of them, and have worked with them for years--I'll be very 
brief and ask that my statement be made part of the record.
    The Chairman. Well, your full statement will be made part 
of the record----
    Senator Warner. Thank you.
    The Chairman [continuing]. As if read in full, Senator. 
But, let me just say to you, we're elected politicians, you're 
now a statesman, so we want to hear what you have to say. 
[Laughter.]
    Senator Warner. Well, don't count me out. I might try to 
get reelected to something. [Laughter.]
    The Chairman. Well, if you'd follow Senator Specter's 
example, we'll welcome that. [Laughter.]
    Senator Warner. I thought long and hard about what I wanted 
to say today, and I'm going to--in a few sentences--yeah, 
sure--in a few sentences, I'm going to summarize what I will 
cover extemporaneously and briefly.
    I look upon the challenge before this committee--and I 
don't say this in any disrespect to my former colleagues on the 
other committees--but you have got to be the leaders, for this 
reason: This is one of the most complex issues that's ever been 
faced by the Congress of the United States. The ramifications 
are multifold. We're talking about emitters. It's almost every 
business--except the smaller ones, that are exempted--every 
business--manufacturing, transportation, everything in our 
country. Enormous consequences to our impact. We're talking 
about a cap-and-trade system, and the magnitude of that could 
well exceed the current markets we have for the New York Stock 
Exchange over the counter, the NASDAQ, and the like. This is 
huge. And, this committee's role--I say it--it's like 
fashioning and forging the axle, the centerpiece around which 
all the other issues and parts and spokes rotate. And it's 
essential--I hope that this Congress can reconcile its 
differences, find a common ground, provide a bipartisan 
solution to this issue, and put it in legislative form, that, 
No. 1, can be understood and accepted by the general public, 
because the weight of this issue is going to be on their backs 
and on their pocketbooks, and they've got to understand it.
    Then the key to your forging this axle is working with the 
other nations to adopt policies, commitments, and then, 
eventually, ``binding targets,'' the term used by the Indian 
Prime Minister the other day. And, that's got to be a structure 
that's got to work, and not just serve America, but to serve 
the global community. Because the whole world, no matter where 
the people are, are affected by this situation.
    So, your job is to work with the other committees. And I 
want to now commend Senator Reid and other leaders who have 
decided to take the several committees, synthesize their views, 
and bring to the floor a bill. Senator Lieberman, for whom I 
have tremendous respect and affection--we were loners, we did 
have Chairman Boxer, of that committee, who gave us the 
support--but I, as you well know, Senator Lugar, was the only 
Republican on that committee that signed on. I don't say that 
in derogation of my colleagues at all. It's just factual 
history. And, when we got to the floor, the rest is history.
    But, we did lay a landmark. As we say in the Marines, we 
laid a beachhead. By the way, this is quite a Navy team, you 
know. One, two, three sailors--four, five up there--I don't 
know about the rest of you, but anyway, we laid a beachhead and 
the rest is history. You know what the House has done, and 
you're beginning to comprehend what the Senate--but, I come 
back--the United States, hopefully, with the support of the 
Congress, having forged a legislation, with your leadership, 
can go to the international conference in Copenhagen, and 
become a leader, and step out in front, and take the position 
which we must take.
    Now, that's, in simplicity, what I have to say. But, I'll 
add this. It's my judgment that if we do those steps and give 
this thing an honest chance, and the rest of the community join 
us, the American public will go with you. But, if the American 
public, in a year or two, perceive that we're going it alone in 
the United States, and that the other nations of citizens 
aren't bearing part of their responsibilities and the burden 
and the cost, the American pub-
lic could pull a plug on this legislation. That's--I don't mean 
to threaten--but, I have been around a little while, and I'm 
out on the hustings now, with my good friend, General--Admiral 
McGinn down here, speaking to people and listening very 
carefully.
    Just for the purposes of ethics, I've got to point out that 
I'm now a partner in my old law firm, Hogan & Hartson. I left 
there 37 years ago to be Under Secretary of the Navy, and they 
kindly took me back. I'm also working on behalf of the Pew 
National Trust--Charitable Trust, and particularly the Pew 
Project on National Security, Energy, and Climate. I work 
exclusively with the executive branch. I do not do anything 
with regard to the Congress, to comply with title 18, section 
207, but that title enables me, at your invitation, to testify, 
and that is what I do today. But, my remarks are those of my 
own and not necessarily of the law firm or the clients that I 
represent.
    We've tried, at Pew, to bring together the concept--which 
is not originated with Pew; the other colleagues have--in their 
testimony, will give you the background. And it's--I view this 
thing as a tripod. It rests on climate change, on our future 
energy policy, and national security. And it's on that 
foundation that we've got to build this international 
relationship--and you forge that axle of the finest strength 
that you can possibly make it--around which all the other 
decisions have got to eventually be made.
    Now, you pointed out very clearly, both of you, that our 
U.S. military could be drawn into these conflicts as a 
consequence of the instability their nations are now 
experiencing, and that instability can be further destabilized 
by the consequences of climate change, water shortage--whether 
that be climate or otherwise--energy, and the like. So, we're 
really talking about the men and women in uniform of our U.S. 
military.
    Now, I was interested--yesterday, the Secretary of Defense 
said he's got to increase the size of the U.S. Army. The 
decision--were I here, I would support it wholeheartedly, 
because they're stretched, their families are stretched, and 
they have done valiantly under the concept of the All-Volunteer 
Force. And you, Senator Kerry, were in the military at the time 
we adopted the All-Volunteer Force. You came in, I think, at 
the time we had the draft. You weren't drafted--you got----
    The Chairman. That's correct.
    Senator Warner [continuing]. Volunteers. But, that All-
Volunteer Force is fragile, like everything else in life. But, 
it has withstood a tremendous stress of times, here, with two 
very significant combat actions we're in right now.
    So, as we progress today, let's think of the men and women 
in uniform and their families, whose missions, today, tomorrow, 
and in the future, could be definitely affected by global 
climate change, energy shortages, and the like.
    I was very proud to work with a number of people--Secretary 
of Defense Gates has spoken on this; ADM Denny Blair, colleague 
of ours in the Navy, has spoken on the need for this; a number 
of Active-Duty--Chairman of the Joint Chiefs has spoken on the 
necessity of this, and many retired, of which you referred to--
the chair and the ranking member. So, I will not go into those 
statements.
    But, I do want to go back, tell a little personal story 
about how I got into this thing, because when I was chairman of 
the Armed Services Committee, it really wasn't on my scope. 
But, I remember you, Senator Kerry. You used to convene 
meetings in S-207, with terrible sandwiches, I remember----
    [Laughter.]
    Senator Warner [continuing]. And you'd bring in energy 
experts, other experts, to tell us what was coming. That was 5 
or 6 years ago, you were looking at this issue. And I commend 
you. And I got interested. I went to those luncheons and 
receptions that we had and listened to the private sector, 
largely, tell us what was coming. And, sure enough, it's here 
today. So, that was one way I got started.
    And then, I listened to your opening statement and that 
short story. In 1943, I was getting ready to go into the Navy. 
My father had been in World War I in the trenches as a medical 
doctor, and he said, ``You haven't really had a man's job. Go 
get one. I'll pay your way, anywhere in the United States, but 
you've got to get enough money to get home or you're going to 
stay there.''
    So, in those days, youngsters didn't have a chance to 
travel like they do today, so I got the longest train ride I 
could get. And I got a job with the U.S. Fire Service in Coeur 
d'Alene, ID, as a firefighter and a trailblazer. So, I went out 
there. And the point is, we were taken back into those 
absolutely magnificent pristine forests, where we worked. And 
we fought fires, and indeed, personal risk is firefighting, I 
assure you. Not an easy job. And it's etched in my mind, the 
magnificence of that forest.
    Fast-forwarding, about 5 years ago I went to Coeur d'Alene 
to give a speech, and I asked the Fire Service to take me back 
up there. And, Senator Kerry, I saw exactly what that Governor 
of Colorado told you. Those very trees and forests, among which 
I lived for 3 months with those other fellows in 1943, are 
decimated, dead, dying, because of that bark beetle and the 
lack of severity--the normal severity of the winter season to 
curtail their propagation. That is my example. So, those two 
things got me into this thing.
    Now, in 2007, I was privileged, as a member of the Armed 
Services Committee--with Senator Clinton--and, the two of us--
she, largely--initiated the first statute for the Pentagon to 
begin to look to future missions and roles as affected by 
climate change and energy. And I've attached that statute to 
this text I'm delivering here today, and it directs the 
Department of Defense, in its planning, to begin to plan to 
take on these added missions. Now, the severity of those 
missions, the complexity, and the stress on the Armed Forces is 
directly correlated to how much we can achieve or not achieve, 
now and tomorrow, by way of reducing greenhouse gases and the 
cause for this instability throughout the world.
    I won't go into the instability situation, because I want 
to defer to this panel. Having had the opportunity to resonate 
my voice in this Chamber many times, I think their first time, 
and I'm going to yield a good deal of my time to them.
    But, I do strongly suggest that we take the lead and step 
out in Copenhagen. And the work that you do here, in putting 
that axle together, will largely depend on the success there.
    The other thing I would recommend--and this is slightly 
afield of what--the jurisdiction of this committee--but, I 
would hope that maybe the Armed Services Committee and the 
Intelligence Committees could be invited to look at this 
legislation, being formulated by distinguished Leader Reid, and 
see whether or not they could also participate, because it 
directly relates to what we're speaking, today, and they have 
jurisdictions over the welfare of the men and women of the 
Armed Forces.
    I think, Mr. Chairman, for the moment, I will conclude, 
yield the floor to these distinguished colleagues over here, 
and then rejoin in the question period.
    I thank the members of the committee.
    [The prepared statement of Senator Warner follows:]

      Prepared Statement of Hon. John Warner, Former U.S. Senator,
                             Alexandria, VA

    Senator Kerry, Senator Lugar, members of this committee, many of my 
longtime friends and colleagues, thank you for the invitation to 
provide this important committee with my thoughts on the pressing 
issues of a new energy future, global climate change, and the potential 
consequences to national security, of not only the United States, but 
the security of nations worldwide.
    Since retiring from the Congress on January 3, I have been 
fortunate to join, as a partner, the firm Hogan and Hartson, where I 
started my legal career many years ago. I am honored to be working with 
the Pew Charitable Trusts on the Pew Project on National Security, 
Energy and Climate. However, today, the views that I offer are mine 
alone.
    The Pew Project brings together science and military experts to 
examine new strategies for combating climate change, protecting our 
national security, increasing our energy independence and preserving 
our Nation's natural resources. Pew provides this information and 
outreach to the general pubic.
    I spent 30 years in the U.S. Senate working on behalf of our men 
and women in uniform serving our country; in my last years, on issues 
related to the potential impact of climate changes on their future 
military roles and missions. Leading military, intelligence, and 
security experts have publically spoken out that if left unchecked, 
global warming could increase instability and lead to conflict in 
already fragile regions of the world.
    If we ignore these facts, we do so at the peril of our national 
security and increase the risk to those in uniform who serve our 
Nation. It is for this reason that I firmly believe the United States 
must take a leadership role in reducing greenhouse gas emissions. Other 
nations are moving ahead and the United States must join and step to 
the forefront.
    With the Pew Project, I am working with State and municipal 
governments, the administration, local organizations, and military, 
security, and climate experts in the United States to address the 
climate-energy-national security nexus. And I hope this work will 
educate the American public on these potential risks to our national 
security posed by global climate change.
    Just last week, the Pew Project went to Missouri where we held two 
fora, one in St. Louis and one in Kansas City, examining the link 
between national security, energy and climate change. Tomorrow, I 
travel with the Pew Project to Charleston, SC, for similar events, and 
later in the summer and early in the fall, we are slated to visit the 
States of Michigan, Virginia, and Indiana. Your witness today, retired 
VADM Dennis McGinn travels with me and is a most articulate, credible 
spokesman on the threats climate change and our energy policies pose to 
national security.
    In my 30 years in the U.S. Senate, I have not seen an issue as 
complicated as the challenges posed by national security, energy, and 
climate change.
    As the committee well knows, in the last Congress, I was privileged 
to work with an extraordinarily capable legislator, Senator Joe 
Lieberman--and with the chairman and members of the Senate Environment 
Committee--to produce the only climate change bill to reach the Senate 
floor.
    Even before I teamed up with Senator Lieberman, this issue had my 
attention. I was privileged to serve for many years as the chairman of 
the Senate Armed Services Committee. In 2007, I was pleased, as a 
senior member of the Armed Services Committee, to cosponsor with then-
Senator, Secretary of State Hillary Clinton, a provision in the fiscal 
year 2008 defense reauthorization bill that would require the 
Department of Defense to consider the effects of climate change on 
department facilities, capabilities, and missions. This provision, 
signed into law, requires future periodic revisions of long-range 
national strategic plans to take account of the impact on U.S. 
interests of global climate change.
    Secretary Clinton and I included this language in the annual 
defense bill because we recognized at that time the strategic, social, 
political and economic consequences climate change could have on 
political instability in parts of the world.
    Accordingly, I firmly believe that the challenge before us is to 
build a foundation resting on three legs: Energy, climate change, and 
national security. Eventual success requires all three legs to remain 
equally strong.
    I want to credit the many national security experts who have 
expressed their concerns, which I share. Many senior retired officers, 
from all branches of our services, including my friend and thought 
partner, VADM Dennis McGinn, have come forward and joined in the public 
debate, expressing clearly their views in support of action on climate 
change.
    One extraordinary solider, the former Chief of Staff of the United 
States Army, GEN Gordon Sullivan, who chaired the Military Advisory 
Board of the Center for Naval Analysis, succinctly framed what we face: 
``The cold war was a specter, but climate change is inevitable. If we 
keep on with business as usual, we will reach a point where some of the 
worst effects are inevitable . . . back then, the challenge was to stop 
a particular action. Now the challenge is to inspire a particular 
action. We have to act if we are to avoid the worst effects.''
    Today our Nation and much of the world is in the grips of an 
economic crisis without precedent. The brave men and women of our Armed 
Forces and that of other nations are engaged in two wars. 
Understandably there is a measure of legitimate fear in our hearts as 
to whether we should undertake at this time such an enormous and 
uncertain challenge as posed by the issues before us in this hearing. 
But I say, in the spirit of the generations, which showed the courage 
to find solutions to move our country forward, that it is our duty to 
replace fear with confidence.
    We as a nation can do it again, provided we come up with sound 
solutions; solutions that can be understood and made acceptable to the 
American people. This is for the benefit of their children and 
grandchildren.
    Our President has shown courage and committed to work with the 
Congress on this matter, and I hope the resulting legislation will rest 
on the tripod that I have described. Such action will lay the 
groundwork for the United States to go to Copenhagen in December as a 
leader.
    When I testified before the House Energy and Commerce Committee 
earlier this year, I suggested that climate legislation should 
incorporate a specific role--equal to other departments and agencies--
to the Department of Defense and the Intelligence agencies. They bring 
to this issue a very different and critical perspective, but also vast 
knowledge and resources to get this job done.
    Looking back, we should have included such language in the 
Lieberman-Warner bill. We could have garnered more support. A 
reasonable objective analysis of polling data today shows that the 
American public is motivated toward action on climate change by the 
likelihood that more jobs will be created and our national security 
strengthened.
    To be specific, in the arena of national security, one of the most 
critical components is maintaining stability in the world.
    Many factors can lead to instability. To name a few associated with 
global climate change: Severe droughts, excessive sea level rise, 
erratic storm behavior, deteriorating glaciers, pestilence, shift in 
agriculture ranges.
    These factors can result in water wars, crop failures, famine, 
disease, mass migration of people across borders, and destruction of 
vital infrastructure, all of which can further lead to failed nations, 
rise in extremist behavior, and increased threat of terrorism. Much of 
this is likely to happen in areas of the world that are already on the 
brink of instability. In other words, climate change is a ``threat 
multiplier'' making worse the problems that already exist.
    Global climate change has the potential, if left unchecked, of 
adding missions to the already heavy burdens of our military and other 
elements of our Nation's overall national security.
    To the extent we can plan today how best to minimize these 
contingent disasters means, the less we may have to call upon our Armed 
Forces tomorrow.
    Whose military is best equipped, most capable to help with the 
evacuation of distressed areas? Who is going to be called upon to 
intervene in such humanitarian disasters? The United States military 
will be called to action. Such action will not only bear financial 
costs to our military, and thus our taxpayers, it will divert resources 
and troops from other areas of the world.
    For those volatile nations that are not capable of dealing with the 
pressures of climate change, governments can fail and extremism and 
terrorism can fill the void.
    In 2007, the Military Advisory Board (MAB) of the Center for Naval 
Analysis, a nonprofit think tank, issued a report titled ``National 
Security and the Threat of Climate Change.'' The MAB is comprised of 
many of the most distinguished and highest ranking retired military 
leaders in the United States. They made several of the conclusions I 
have shared with you in today's remarks. To quote from that report, in 
the words of ADM T. Joseph Lopez, USN (Ret.), ``You have very real 
changes in natural systems that are most likely to happen in regions of 
the world that are already fertile ground for extremism.''
    Delaying action on global climate change will exacerbate these 
threat multiplying effects and will cost the United States more in the 
long run. The difference is that these later costs will not only be 
economic; there will be a human cost.
    On the battlefield, we never wait until we have 100 percent 
certainty or wait for the conditions to be 100 percent ideal. We have 
to act when we have enough information to act. And I think the 
information we have is clear.
    Again, I emphasize, the United States cannot and should not wait 
for other countries to take the lead. Certainly it is our desire to 
have all nations commit to economywide emissions targets; however, that 
policy may not be practical at this time. This reality must not be a 
basis for delaying the United States from stepping forward to take a 
greater leadership role.
    Our international position must be to encourage developing nations 
to adopt a framework of policy commitments for a national program. 
These commitments could include sustainable forestry, renewable energy, 
and other programs that achieve emission reductions.
    There is a critical role for the Senate Foreign Relations Committee 
in the development of our domestic legislative program and our 
international leadership role toward crafting an international treaty.
    To foster early international participation, our domestic climate 
change program must provide for robust international offsets. Until 
advanced technologies become commercially available, we must take 
advantage of low-cost, readily available emission reduction 
opportunities wherever they are, which today often means in other 
countries.
    International offsets provide the best chance to slow tropical 
deforestation and are a critical component of our domestic challenge to 
reduce compliance costs, Analysis from EPA and in nongovernmental 
analysis shows domestic compliance costs are dramatically reduced with 
the availability of international offsets. By purchasing emission 
reductions made abroad, U.S. companies save money, save jobs, and 
foster critical relationships in developing nations.
    Climate change is a global problem that demands a global solution. 
But the United States is uniquely positioned to be a strong leader in 
the effort to reduce greenhouse gases, while also putting safeguards in 
place to protect our economy, jobs, and national security.
                                 ______
                                 

 Public Law 110-181, Sec. 951. Department of Defense Consideration of 
 Effect of Climate Change on Department Facilities, Capabilities, and 
                                Missions

    (a) Consideration of Climate Change Effect.--Section 118 of title 
10, United States Code, is amended by adding at the end the following 
new subsection:
    ``(g) Consideration of Effect of Climate Change on Department 
Facilities, Capabilities, and Missions.--(1) The first national 
security strategy and national defense strategy prepared after the date 
of the enactment of the National Defense Authorization Act for Fiscal 
Year 2008 shall include guidance for military planners--
          ``(A) to assess the risks of projected climate change to 
        current and future missions of the armed forces;
          ``(B) to update defense plans based on these assessments, 
        including working with allies and partners to incorporate 
        climate mitigation strategies, capacity building, and relevant 
        research and development; and
          ``(C) to develop the capabilities needed to reduce future 
        impacts.
    ``(2) The first quadrennial defense review prepared after the date 
of the enactment of the National Defense Authorization Act for Fiscal 
Year 2008 shall also examine the capabilities of the armed forces to 
respond to the consequences of climate change, in particular, 
preparedness for natural disasters from extreme weather events and 
other missions the armed forces may be asked to support inside the 
United States and overseas.
    ``(3) For planning purposes to comply with the requirements of this 
subsection, the Secretary of Defense shall use--
          ``(A) the mid-range projections of the fourth assessment 
        report of the Intergovernmental Panel on Climate Change;
          ``(B) subsequent mid-range consensus climate projections if 
        more recent information is available when the next national 
        security strategy, national defense strategy, or quadrennial 
        defense review, as the case may be, is conducted; and
          ``(C) findings of appropriate and available estimations or 
        studies of the anticipated strategic, social, political, and 
        economic effects of global climate change and the implications 
        of such effects on the national security of the United States.
    ``(4) In this subsection, the term `national security strategy' 
means the annual national security strategy report of the President 
under section 108 of the National Security Act of 1947 (50 U.S.C. 
404a).''.
    (b) Implementation.--The Secretary of Defense shall ensure that 
subsection (g) of section 118 of title 10, United States Code, as added 
by subsection (a), is implemented in a manner that does not have a 
negative impact on the national security of the United States.

    The Chairman. Thank you very much, Senator Warner. And 
that's an excellent suggestion, which we will follow up on with 
respect to the formulation of the amalgamated bill.
    Admiral Gunn.

STATEMENT OF VADM LEE F. GUNN, USN (RET.), PRESIDENT, AMERICAN 
                SECURITY PROJECT, WASHINGTON, DC

    Admiral Gunn. Mr. Chairman, Senator Lugar, members of the 
committee, thank you very much for the opportunity to appear 
before you today to share my assessment of the national 
security risks facing the United States because of changes 
expected in the Earth's climate.
    I'd like to say a few words now, and submit a lengthier 
statement for the record.
    The Chairman. Absolutely. All statements will be placed in 
full, and if you summarize, that's terrific.
    Admiral Gunn. Mr. Chairman, this committee's attention to 
the national security implications of climate change adds an 
important dimension to the public debate, a piece that, in my 
opinion, has been missing for too long.
    Addressing the consequences of changes in the Earth's 
climate is not simply about saving polar bears or preserving 
the beauty of mountain glaciers; climate change is a threat to 
our national security, as has been said here earlier. Taking it 
head on, is about preserving our way of life.
    I know that there remain some who are still not convinced 
by the science of climate change. I'm convinced. Many remain to 
be persuaded by science that humans are at least contributing 
in important ways to the warming of the globe. I'm not in that 
group, either. But, leaving aside the merits of the science, 
permit me to offer this observation from my 35 years of service 
in the U.S. Navy: threats and risks never present themselves 
with 100-percent certainty. By the time they achieve that 
level, as GEN Gordon Sullivan, former Army Chief of Staff has 
observed, something bad will have happened on the battlefield.
    Mr. Chairman, members of the committee, something bad is 
happening already in our climate. Something worse will happen 
if we don't act with urgency, as a nation, and as a global 
community, to meet this threat.
    The consequences of climate change will be found, and are 
being found, around the world. New climate conditions will lead 
to further human migrations and create more climate refugees, 
including those crossing our own borders. The stress of changes 
in the environment will increasingly weaken marginal states. 
Failing states will incubate extremism.
    In South Asia, the melting of Himalayan glaciers, as has 
been mentioned, jeopardizes fresh water supplies, for more than 
1 billion human beings. In North America, agriculture could be 
disrupted by increases in temperatures and shifting weather 
patterns that limit rainfall. Globally, major urban centers 
could be threatened by rising sea levels.
    Malaria and other tropical diseases are moving into new 
areas, and outbreaks are increasing in frequency as the planet 
warms and weather patterns change. As America debates climate 
change, its effects threaten to undo the good work in fighting 
malaria, which has benefited from this committee's leadership.
    All of this is just the foretaste of a bitter cup from 
which we could expect to drink, should we fail to address--
urgently--the threat posed by climate change to our national 
security.
    I'm here today as president of the American Security 
Project, a bipartisan initiative that, more than a year ago, 
identified climate change as one of the four principal national 
security challenges of the 21st century.
    But, the American Security Project is not the only group of 
national security thinkers and operators concerned with the 
threat posed by climate change. Since retiring from the Navy, I 
have served as president of the Institute for Public Research 
at CNA. CNA is a not-for-profit analysis-and-solutions 
institution heavily involved in helping leaders understand and 
deal with complex operational and public policy issues.
    In 2007, CNA organized a Military Advisory Board, mentioned 
by the chairman, composed of 11 retired generals and admirals. 
Admiral McGinn will include in his testimony a further 
discussion of that group. This Military Advisory Board 
concluded unanimously, though, that climate change poses a 
serious threat to America's national security. They saw changes 
in the Earth's climate as--as the chairman has told us--threat 
multipliers for instability in some of the most volatile 
regions of the world, while also adding to tensions in regions 
whose stability we now take for granted.
    In 2008, the final defense national security strategy of 
the Bush administration recognized climate change among key 
trends that will shape U.S. defense policy in the years ahead. 
Additionally, the National Intelligence Council completed its 
own assessment last year of the threat posed by climate change. 
The national security community is rightly worried about 
climate change, because of the magnitude of its expected 
impacts around the globe, even in our own country.
    Mr. Chairman, Senator Lugar, it's easy to get lost in the 
abstractions when you talk about climate change and national 
security. I'd like to reduce this to specific and practical 
defense applications.
    A changing and uncertain climate will, in my view, demand 
we adapt to new conditions affecting: First, why we apply our 
Nation's power, in all its forms, around the world; second, how 
and where, specifically, our military is likely to fight and 
operate; and third, the issues driving alliance relationships. 
To us, it means with whom we are likely to be on the 
battlefield, and will they be on our side, or will they be our 
opponents.
    First, why we apply power: Climate change will force 
changes in why the United States fights, gives aid, supports 
governments, provides assistance, and anticipates natural, and 
man-made disasters. It will do so because climate change 
threatens unrest and extremism as competition for dwindling 
resources, especially water, spreads. Weak or poorly 
functioning governments will lose credibility and support of 
their citizens. Under these conditions, extremists will 
increasingly find willing recruits.
    In particular, climate change will certainly expand the 
number of humanitarian relief and disaster assistance 
operations facing the international community. America's men 
and women in uniform will be called on increasingly to help in 
these operations directly and to support the operations of 
legitimate governments and nongovernmental organizations, 
alike.
    To how we fight: Climate change will force changes in how 
we operate our forces around the world. Changes will affect 
ground operations and logistics, as well as operations at sea 
and in the air. Sea-level rise threatens large investments in 
U.S. facilities around the world. Desertification and shifts in 
the availability of water can change logistics patterns 
drastically for all our forces.
    As was mentioned earlier, the British Indian Ocean 
Territory, the island of Diego Garcia, is a critical staging 
facility for United States and British naval and air forces 
operating in the Middle East and Central Asia. It sits just a 
few feet above sea level at its highest point. Rising sea 
levels may swamp a part of Diego Garcia, and deny the United 
States this critical operating hub for its Armed Forces. There 
are myriad other examples of contingencies for which our 
national security team must prepare.
    These challenges are not insurmountable, but they will be 
expensive, as Senator Warner has suggested, to address, and 
have to be thought through carefully, lest they impact 
readiness. In any case, confronting changes in the military's 
operating environment and mission set may lead to somewhat 
different decisions about U.S. force structure, in my opinion. 
Consider that it takes 20 or more years to build a new aircraft 
for the U.S. Air Force or for the Navy, and that Navy ships are 
designed to last 30 to 50 years. With these extended 
timeframes, a basing structure secure from threats posed by 
climate, as well as more traditional foes, is a real national 
security consideration. We must anticipate new and revised 
missions for our military forces, and factor those into our 
calculations of the consequences of climate change for 
America's national security.
    Then to alliances: The Arctic is a prime example of how 
alliances will be forced to adapt to the realities of climate 
change. Just a few years ago, the scientific community, as the 
chairman said, was predicting that the Arctic wouldn't be ice-
free until the middle of the century. Now the predictions put 
that date at 2013.
    In the Arctic, the loss of sea ice has caused concern for 
the U.S. Navy for nearly a decade. What naval planners know is 
that loss of sea ice at the North Pole has the potential to 
increase commercial and military activity by other powers. As 
if we needed any evidence of this, look no further than the 
2007 expedition by Russia--to plant its flag in the seabed at 
the North Pole. Not surprisingly, Canada, Norway, Denmark, and 
the United States, all nations bordering on the Arctic, 
responded critically to Russia's actions.
    New climate conditions, new geographic realities, changes 
in economic and commercial circumstances, and pressures of 
migrating populations, all will test old alliances. Some 
changes may create new international friendships, on the other 
hand, friendships that will depend on America's ability to help 
smooth the turmoil associated with those climate changes. 
Supporting other nations' successes will continue to be an 
important part of our military's role in U.S. national 
security.
    Mr. Chairman, Senator Lugar, we at the American Security 
Project have also thought about the regional impacts of climate 
change on our security. I would like to submit some of our 
ideas about the security implications of those regional effects 
as part of my written statement, for the record.
    The Chairman. It will be put in the record.
    Admiral Gunn. I would like to close with one final thought. 
Climate change poses a clear and present danger to the United 
States of America. But, if we respond appropriately, I believe 
we will enhance our security, not simply by averting the worst 
climate change impacts, but by spurring a new energy 
revolution.
    This spring, a second CNA Military Advisory Board--which, 
again, Admiral McGinn will address, as an esteemed member of 
that board--reported on a year-long consideration of energy and 
security issues. The report, entitled ``Powering America's 
Defense: Energy and the Risks to National Security,'' suggests 
strongly that national security, linked to energy security and 
economic growth, which undergird all of our Nation's power, can 
be achieved by taking action now, to avert the worst 
consequences of climate change.
    It is for all these reasons, taken in their totality, that 
the American Security Project will be launching a major 
initiative in the coming months, to analyze and educate the 
public about the national security implications of these 
threats. We will be convening national security and climate 
change experts from around the country. We'll be talking to 
corporate leaders who see the business case for action, and we 
will be working hard to continue the work you have already 
begun to educate the general public on the dire consequences of 
inaction.
    The imperative, then, is for leadership and action on a 
global scale. The United States must act. The United States 
must lead.
    Thank you.
    [The prepared statement of Admiral Gunn follows:]

Prepared Statement of VADM Lee F. Gunn, USN (Ret.), President, American 
                    Security Project, Washington, DC

    Mr. Chairman, Senator Lugar, members of the committee, thank you 
for the opportunity to appear before you today to share my assessment 
of the national security risks facing the United States because of 
changes expected in the Earth's climate.
    I'd like to say a few words now and submit a lengthier statement 
for the record.
    Mr. Chairman, this committee's attention to the national security 
implications of climate change adds an important piece to the public 
debate--a piece that, in my opinion, has been missing for too long.
    Addressing the consequences of changes in the Earth's climate is 
not simply about saving polar bears or preserving the beauty of 
mountain glaciers. Climate change is a threat to our national security. 
Taking it head on is about preserving our way of life.
    I know that there remain some who are still not convinced by the 
science of climate change. I am convinced. Many remain to be persuaded 
by science that humans are at least contributing in important ways to 
the warming of the globe. I am not in that group either. But leaving 
aside the merits of the science, permit me to offer this observation 
from my 35 years of service in the United States Navy: Threats and 
risks never present themselves with 100 percent certainty. By the time 
they achieve that level, as GEN Gordon Sullivan, former Army Chief of 
Staff, has observed, something bad will have happened on the 
battlefield.
    Mr. Chairman, members of the committee, something bad is happening 
already in our climate. Something worse will happen if we don't act 
with urgency--as a nation and as a global community--to meet this 
threat.
    The consequences of climate change will be found, and are being 
found now around the world. New climate conditions will lead to further 
human migrations and create more climate refugees, including those who 
cross our own borders. The stress of changes in the environment will 
increasingly weaken marginal states. Failing states will incubate 
extremism.
    In South Asia, the melting of Himalayan glaciers jeopardizes fresh 
water supplies for more than 1 billion human beings. In North America, 
agriculture could be disrupted by increases in temperatures and 
shifting weather patterns that limit rainfall. Globally, major urban 
centers could be threatened by rising sea levels.
    Malaria and other tropical diseases are moving into new areas and 
outbreaks are increasing in frequency as the planet warms and weather 
patterns change. As America debates climate change, its effects 
threaten to undo the good work in fighting malaria which has benefited 
from this committee's leadership.
    All of this is just the foretaste of a bitter cup from which we can 
expect to drink should we fail to address, urgently, the threat posed 
by climate change to our national security.
    I am here today as the President of the American Security Project--
a bipartisan initiative that, more than a year ago, identified climate 
change as one of four principal national security challenges in the 
21st century.
    But the American Security Project is not the only group of national 
security thinkers and operators concerned with the threat posed by 
climate change. Since retiring from the Navy, I have served as 
President of the Institute for Public Research at CNA. CNA is a not-
for-profit analysis and solutions institution heavily involved in 
helping leaders understand and deal with complex operational and public 
policy issues.
    In 2007, CNA organized a Military Advisory Board composed of 11 
retired generals and admirals (Admiral McGinn has reported/will report 
on that Board's views) who concluded unanimously that climate change 
poses a serious threat to America's national security. They saw changes 
in the Earth's climate as a ``threat multiplier'' for instability in 
some of the most volatile regions of the world, while also adding to 
tensions in regions whose stability we now take for granted.
    In 2008, the final National Defense Strategy of the Bush 
administration recognized climate change among key trends that will 
shape U.S. defense policy in the years ahead. Additionally, the 
National Intelligence Council completed its own assessment last year of 
the threat posed by climate change.
    The national security community is rightly worried about climate 
change because of the magnitude of its expected impacts around the 
globe, even in our own country.
    Mr. Chairman, Senator Lugar, it is easy to get lost in abstraction 
when we talk about climate change and national security. I'd like to 
reduce this to specific and practical defense implications. A changing 
and uncertain climate will, in my view, demand we adapt to new 
conditions affecting:

  <bullet> Why we apply our Nation's power (in all its forms), around 
        the world;
  <bullet> How and where specifically our military is likely to have to 
        fight;
  <bullet> The issues driving alliance relationships (and whom are we 
        likely to find on our side on the battlefield).
                           why we apply power
    Climate change will force changes in ``why'' the United States 
fights, gives aid, supports governments, provides assistance, and 
anticipates natural and man-made disasters. It will do so because 
climate change threatens unrest and extremism as competition for 
dwindling resources, especially water, spreads. Weak or poorly 
functioning governments will lose credibility and the support of their 
citizens. Under these conditions, extremists will increasingly find 
willing recruits.
    In particular, climate change will certainly expand the number of 
humanitarian relief and disaster assistance operations facing the 
international community. America's men and women in uniform will be 
called on increasingly to help in these operations directly and to 
support the operations of legitimate governments and nongovernmental 
organizations alike.
                              how we fight
    Climate change will force change in how we operate our forces 
around the world; changes will effect ground operations and logistics 
as well as operations at sea and in the air. Sea level rise threatens 
large investments in U.S. facilities around the world. Desertification 
and shifts in the availability of water can change logistic patterns 
drastically for all our forces.
    The British Indian Ocean Territory, the island of Diego Garcia is a 
critical staging facility for U.S. and British naval and air forces 
operating in the Middle East and Central Asia. It sits just a few feet 
above sea level at its highest point. Rising sea levels may swamp Diego 
Garcia and deny the United States this critical operating hub for its 
Armed Forces. There are myriad other examples of contingencies for 
which our national security team must prepare.
    These challenges are not insurmountable. But they will be expensive 
to address and have to be thought through carefully lest they impact 
readiness. In any case, confronting changes in the military's operating 
environment and mission set may lead to somewhat different decisions 
about U.S. force structure, in my opinion. Consider that it takes 20 or 
more years to build a new aircraft for the U.S. Air Force or Navy and 
that Navy ships are designed to last 30 to 50 years. With these 
extended timeframes, a basing structure secure from threats posed by 
climate as well as more traditional foes is a real national security 
consideration. We must anticipate new and revised missions for our 
military forces and factor those into our calculations of the 
consequences of climate change for America's national security.
                               alliances
    The Arctic is a prime example of how alliances will be forced to 
adapt to the realities of climate change. Just a few years ago, the 
scientific community was predicting that the Arctic wouldn't be ice-
free until the middle of this century. Now the predictions put that 
date at 2013; just 4 years from now.
    In the Arctic, the loss of sea ice has caused concern in the U.S. 
Navy for nearly a decade. What naval planners know is that loss of sea 
ice at the North Pole has the potential to increase commercial and 
military activity by other powers. As if we needed any evidence of 
this, look no further than the 2007 expedition by Russia to plant its 
flag in the seabed at the North Pole. Not surprisingly, Canada, Norway, 
Denmark, and the United States--all nations bordering on the arctic--
responded critically to Russia's actions.
    New climate conditions, new geographic realities, changes in 
economic and commercial circumstances, and pressures of migrating 
populations; all will test old alliances. Some changes may create new 
international friendships that will depend on America's ability to help 
smooth the turmoil associated with those changes. Supporting other 
nations' successes will continue to be an important part of our 
military's role in U.S. national security.
    Mr. Chairman, Senator Lugar, we at the American Security Project 
have also thought about the regional impacts of climate change on our 
security. I would like to submit some of our ideas about the security 
implications of those regional effects as part of my written statement 
for the record.
    I would like to close with one final thought.
    Climate change poses a clear and present danger to the United 
States of America. But if we respond appropriately, I believe we will 
enhance our security, not simply by averting the worst climate change 
impacts, but by spurring a new energy revolution.
    It is for all of these reasons, taken in their totality, that the 
American Security Project will be launching a major initiative in the 
coming months to analyze and educate the public about the national 
security implications of these threats. We will be convening national 
security and climate change experts from around the country, we'll be 
talking to corporate leaders who see the business case for action, and 
we will be working hard to continue the work you've already begun to 
educate the general public on the dire consequences of inaction.
    This spring a second CNA Military Advisory Board (covered more 
completely by one of its esteemed members, Admiral McGinn) reported on 
a year-long consideration of energy and security issues. The report, 
entitled ``Powering America's Defense: Energy and the Risks to National 
Security,'' suggests strongly that national security, linked to energy 
security and economic growth, which undergird all of our Nation's 
power, can be achieved by taking action now to avert the worst 
consequences of climate change.
    The imperative, then, is for leadership and action on a global 
scale. The United States must act. The United States must lead.

    The Chairman. Thank you very much, Admiral. Important 
testimony, and we appreciate it very much.
    Ms. Burke.

  STATEMENT OF SHARON BURKE, VICE PRESIDENT, CENTER FOR A NEW 
               AMERICAN SECURITY, WASHINGTON, DC

    Ms. Burke. Thank you, Mr. Chairman, Senator Lugar.
    It's obviously a great honor for me to be here on behalf of 
my colleagues from the Center for a New American Security. And 
it's also a great honor because we consider this hearing a sign 
of important progress. This hearing is looking at climate 
change in a bipartisan way by people with such sterling defense 
credentials. It's a great leap forward. And, Senator Warner, I 
wish to reassure you that my father was a Marine, so I have a 
right to be part of the naval hegemony today. [Laughter.]
    My testimony is going to focus on three reasons why it's so 
important to characterize climate change as a national security 
challenge. And, of those three, first I would say, most simply 
because the world is changing, the strategic environment is 
changing. Second, because there is a direct relationship 
between climate change and security. And finally, because of 
the ways in which national security will be part of the 
solution as we figure out how to go forward.
    So, first, the world is changing--the global strategic 
environment is changing. The Center for a New American Security 
is looking at what we're calling ``natural security,'' or the 
ways in which natural resources constitute national security 
challenges. The modern global economy depends on access to 
energy, minerals--nonfuel minerals--potable water, and arable 
land to meet the rising expectations of growing world 
populations. And that access is by no means assured. In some 
cases, we're not even sure how vulnerable the global supply 
chains are. At the same time, increasing consumption of these 
resources has consequences, such as climate change, which will 
challenge the security of the United States and nations all 
over the world. Therefore, natural security ultimately means 
sufficient, reliable, affordable, and sustainable supplies of 
natural resources for the modern global economy.
    Now, in this context, resource challenges are important, 
but so are the connections among resource challenges. So, 
consider, for example, that the United States, as we attempt to 
address the inherent geostrategic weakness of our reliance on 
oil, some of the proposed solutions may just swap in other 
vulnerabilities and dependencies. For example, substituting 
coal for oil would affect climate change consequences. Ethanol 
affects food prices, which have helped provoke unrest over the 
last few years in some 40 countries. Plug-in electric or hybrid 
vehicles, with current technologies, often depend on lithium, 
but consider that lithium is also a resource with very 
concentrated supply. Bolivia, for example, has more than 50 
percent of global reserves of lithium. Solar photovoltaic 
panels may require minerals, such as gallium, for which the 
United States is 99 percent dependent on imports. And, we don't 
even know how much gallium there is in the world. Although, we 
do know that China supplies almost 40 percent of current United 
States consumption.
    At the same time, there are ways in which conservation, 
water rights negotiations, and other environmental strategies 
can complement and enhance national security strategies, and 
ways in which national security strategies are unlikely to 
succeed without addressing such concerns. And I think we're 
seeing that right now in the economic development component of 
our strategies in Iraq and Afghanistan.
    So, as a natural security concern, climate change, in 
particular, is going to be important as a national security 
concern. Climate change will affect national security in the 
very broadest sense, including economic growth, trade 
partnerships, the security of international shipping lanes, 
social stability, and international terrorism. More narrowly, 
global climate change may spur sudden-onset and slow-onset 
disasters. ``Sudden'' being hurricanes and floods, for example, 
and ``slow'' being such phenomena as droughts and famines. This 
will happen around the world, which leads to humanitarian 
crises that will require military and other governmental 
responses.
    Climate change will alter the military operating 
environment, as well, requiring advance planning and ongoing 
reevaluation of operating conditions.
    But, climate-change national-security missions may go 
beyond the humanitarian and disaster relief missions that we've 
heard about today in this hearing, and I think a good case in 
point is Somalia. Drought, famine, and other climate-related 
stressors there, which may or may not be a result of global 
climate change, have played a part in the disintegration of 
that country. As part of the resulting chaos, U.S. forces have 
been attacking terrorist positions within the country, 
including al-Qaeda affiliates; they've been escorting 
humanitarian convoys; they've been countering piracy off the 
coast--which has been in the papers a great deal. But, they've 
also been assisting regional neighbors in dealing with the 
destabilizing effects of violence, refugee movements, and arms 
trafficking. So, the national security community may well have 
a direct role to play in any of these areas.
    But, there are other ways that our community will be part 
of the solutions--of climate change solutions. First, as the 
United States struggles with how to cut emissions of greenhouse 
gases 80 percent by 2050, the defense community will be 
critical. DOD is the single largest energy consumer in the 
Nation, as you mentioned, Senator Lugar; and although there is 
no single measure of the Department's carbon footprint, there's 
no question that it's one of the world's largest emitters of 
greenhouse gases. Also, the size of the Department's budget and 
its extensive need, both for transportation fuels and for 
electricity, but also for information, this creates a very 
important demand pull.
    And, by information I mean that as the Department of 
Defense plans for military operations for humanitarian and 
disaster relief or for contingencies such as those in Somalia, 
Department planners will need certain kinds of information 
about what the trends are--the demographic trends, the security 
trends. And, to date, to the extent that groups such as mine 
have looked at how the United States will adapt to expected 
climate changes, that kind of information has not been 
available because there's been no demand for it. So, the 
Department has a very important role to play in providing a 
demand signal for information, as well as for innovation.
    Now, the United States also has a range of capabilities 
that no other nation has. And we've heard about the 
humanitarian and disaster relief missions today in this 
hearing. Consider that the 2004 tsunami relief, and the 
conditions that devastated Indonesia, to get a sense of the 
scale involved in such efforts. The Department of Defense 
logged more than 10,000 flight hours and transported more than 
24 million pounds of relief supplies and equipment to the 
devastated areas. Men and women from every service--the Navy, 
Marines, the Army, the Air Force, and the Coast Guard--
participated in that relief effort. There is no other nation 
that can do this. We are the only nation that has these 
capabilities, and that will come into play, going forward.
    I think the national security community is also in a very 
strong position to advocate for the value of preparedness, of 
resilience, of a greater investment in everything from stronger 
flood control to better governance in weak states. And that 
will be an important part of the response, going forward, as 
well.
    More generally, one of the important roles that the 
military has to play is that, in poll after poll, the military 
is the most trusted institution in this country. Public 
recognition by defense and military officials that climate 
change is a threat and something that we have to take 
seriously, as well as other natural resources challenges, will 
help Americans more properly understand the nature of the 
challenge we're facing. So, these gentlemen at the table today, 
Senator Warner, Vice Admiral Gunn, and Vice Admiral McGinn, 
they have a very important role to play in bringing the country 
along.
    Indeed, I think, looking forward, that the consequences of 
climate change, the global consequences, are likely to entail 
some very hard choices for the United States in how and where 
and when to respond with humanitarian assistance and military 
assets, as well as the aid that will promote resilience to 
climate changes. And this is not going to be limited to global 
contingencies. We've had hurricanes, wildfires, and floods, and 
are likely to have more wildfires in Colorado, as a result of 
what Governor Ritter told you, Senator Kerry, about the damage 
to forests there from the pine beetle. We've seen these 
contingencies here at home in recent years, and in many 
instances, we've needed the National Guard and Reserves, and, 
in some cases, Active-Duty Forces to respond at home, as well.
    At some point in the near future, the Nation is going to 
need guidance from the Commander in Chief and the National 
Command Authority as to how we're going to deal with these 
challenges, and which contingencies will require or warrant a 
U.S. response and investment. And, as my organization, the 
Center for a New American Security, has written extensively, we 
also feel very strongly that there is a need for a national 
strategy to help guide the nation through these very difficult 
tradeoffs and choices that we'll be facing in the future. We've 
seen some very promising signs out of this administration, that 
they will be crafting such a strategy, and we sincerely hope 
that this committee and Congress, both sides of the aisle, will 
be involved in that process.
    Thank you, again, for the opportunity to be here.
    [The prepared statement of Ms. Burke follows:]

    Prepared Statement of Sharon Burke, Vice President for Natural 
      Security, Center for a New American Security, Washington, DC

    Mr. Chairman, Senator Lugar, on behalf of my colleagues at the 
Center for a New American Security, I thank you for this opportunity to 
testify on the threats, opportunities, and geostrategic challenges of 
global climate change. My organization, the Center for a New American 
Security, has made it part of our mission from our inception to look at 
the ways in which energy and climate change affect national security, 
and how to best integrate such concerns into the national security 
community. So while it is certainly my honor to be here today in such 
company, I and my colleagues are also greatly encouraged in our work by 
this hearing. We consider this an important demonstration of the fact 
that global climate change is now taken seriously as a strategic 
challenge for the Nation by both political parties and by key military 
and civilian defense leaders.
    Indeed, my testimony today will focus on why it is so important to 
characterize climate change as a pressing national security challenge. 
First, the choices we make today, particularly the amount of energy we 
choose to consume, will determine the climate consequences we will face 
in the future, so this is very much about our actions right now. 
Second, national security capabilities can take decades to build: we 
need to design the ideas and equipment and recruit and train the 
personnel to protect and defend the Nation 10 to 40 years in the 
future, and it is clear that climate change will shape our future.
    There is no question, of course, that climate change is not solely 
a security issue--there are driving economic, environmental, and public 
health concerns associated with climate change, as well, and all of 
these concerns need to be addressed in tandem. There are compelling 
reasons, however to focus on the intersection of national security and 
climate change, which I will discuss today.

  <bullet> First, the global strategic environment is changing in ways 
        that have broad implications for U.S. security and stability, 
        and natural resources are an increasingly important driver in 
        that change. I will therefore begin my remarks by talking about 
        the importance of what the Center for a New American Security 
        calls ``natural security.''
  <bullet> Second, in addition to the overall strategic climate, 
        climate change is directly a military problem in that it will 
        affect the operating environment, geostrategic landscape, and 
        future military missions.
  <bullet> Finally, there are ways in which the national security 
        community will play an important part in addressing global 
        climate change.
   the changing global strategic environment: the case for ``natural 
                             security'' \1\
    Over the last 2 years, CNAS has developed a body of work on the 
highly intertwined national security and foreign policy implications of 
energy and climate change. Indeed, as CNAS examined these questions, we 
came to understand that not only are energy and climate change 
inextricably linked, they are connected to challenges associated with 
other natural resources, most notably nonfuel mineral supplies, water, 
land use/food supply, and biodiversity.
---------------------------------------------------------------------------
    \1\ This section is drawn from the Center for a New American 
Security publication, ``Natural Security,'' published in June 2009, 
which can be retrieved at http://www.cnas.org/node/2712.
---------------------------------------------------------------------------
    Consider, for example, that as the United States attempts to 
address the inherent geostrategic weakness of its reliance on oil (and 
the role the U.S. military, as a significant consumer of hydrocarbons, 
plays in that vulnerability), some of the proposed solutions may just 
swap in other dependencies, also with security consequences. There are 
those who suggest we substitute coal for imported oil, and the United 
States does have relatively abundant supplies of coal. Absent a major 
breakthrough in carbon capture and sequestration technologies, however, 
such a switch would greatly exacerbate global climate change and the 
related security concerns. Another solution the Nation has invested in, 
corn-based ethanol, can have implications for global food prices, which 
provoked unrest in some 40 countries in the last 3 years. 
Transportation, as the heart of U.S. oil supply dependency, merits 
special attention, and proposed solutions include increased reliance on 
plug-in electric or hybrid vehicles. Currently, such vehicles depend on 
minerals such as lithium for their batteries, and these resources are 
sometimes as highly concentrated as is oil (Bolivia, for example, has 
more than 50 percent of global reserves of lithium). Solar photovoltaic 
panels require a range of materials and minerals, such as gallium, for 
which the United States is 99 percent reliant on imports, and for which 
there is no information about the global reserves-to-production ratio. 
And though we do not know how much gallium exists in the world, we do 
know that China supplies almost 40 percent of U.S. consumption.\2\
---------------------------------------------------------------------------
    \2\ National Research Council, ``Minerals, Critical Minerals, and 
the U.S. Economy, Committee on Critical Mineral Impacts of the U.S. 
Economy'' (Washington, DC: The National Academies Press, 2008).
---------------------------------------------------------------------------
    At the same time, there are ways in which conservation, water 
rights negotiations, and other environmental strategies can complement 
and enhance national security strategies, and ways in which national 
security strategies are unlikely to succeed without addressing such 
concerns. For example, President Obama has stated repeatedly that peace 
in Afghanistan will be contingent on economic, civic, and political 
development as much as military successes. A 2009 UNEP report found, 
however, that most of Afghanistan's natural resources are severely 
degraded and that any recovery would depend on restoration of these 
resources.\3\ Achieving U.S. goals in the region may well depend on our 
ability to tie natural resources into national security. For that 
matter, negotiations about climate change will be central to the 
relationship between the United States and China going forward.
---------------------------------------------------------------------------
    \3\ Silja Halle, ed., ``From Conflict to Peacebuilding: The Role of 
Natural Resources and the Environment,'' United Nations Environment 
Programme (February 2009).
---------------------------------------------------------------------------
    In the 21st century, the security of nations will increasingly 
depend on the security of natural resources, or ``natural security.'' 
The modern global economy depends on access to energy, minerals, 
potable water, and arable land to meet the rising expectations of a 
growing world population, and that access is by no means assured. At 
the same time, increasing consumption of these resources has 
consequences, such as climate change and biodiversity loss, which will 
challenge the security of the United States and nations all over the 
world. Natural security ultimately means sufficient, reliable, 
affordable, and sustainable supplies of natural resources for the 
modern global economy. This will require the United States to both 
shape and respond to emerging natural resources challenges in a 
changing strategic environment.
    These concerns are not necessarily new, even in the context of 
war--access to resources has always been a concern. In World War II, 
for example, American civilians contributed their pots, pans, and car 
tires to help the war effort, while both Allied and Axis forces 
struggled with oil shortages. Today, however, strategic concerns 
surrounding natural resources are set in a different context, because 
the global strategic environment is increasingly different. Russia, 
China, and other emerging (or reemerging) states are part of an 
extraordinary rebalancing of global wealth and power, which will 
characterize the 21st century, according to the National Intelligence 
Council (NIC). These shifts are already evident: More people in more 
places in the world are seeing improved living standards, with access 
to modern technologies. More than half the world's population, for 
example, now has access to a cell phone. Cell phones may displace or 
supplement land lines in many parts of the world, but for millions of 
people, it is the first time they have had telephone service; this 
represents a wholly new and unprecedented demand for services and 
materials. According to the NIC, such global shifts, taken together, 
mean that by 2025 ``unprecedented economic growth, coupled with 1.5 
billion more people, will put pressure on resources--particularly 
energy, food, and water--raising the specter of scarcities emerging as 
demand outstrips supply.'' \4\
---------------------------------------------------------------------------
    \4\ C. Thomas Fingar, NIC Chairman, ``Global Trends 2025: A 
Transformed World,'' National Intelligence Council (November 2008).
---------------------------------------------------------------------------
    In this new strategic environment, how nations actually define and 
achieve security is changing. Indeed, there has been some concern, in 
both the environmental and defense communities, about the 
appropriateness of ``securitizing'' natural resources challenges such 
as climate change (i.e., overusing the security framework to understand 
challenges that are not at their heart about security), but that 
concern is misguided. The concern, more appropriately, should be about 
``militarizing'' such challenges. Climate change, for example, may not 
be a threat that soldiers can attack and defeat but it is likely to 
affect the safety and prosperity of every American, both through its 
effects on global stability and on our local environments.
    It follows, then, that if security threats are not always military 
in nature that military means are not the only way to achieve security, 
a point Secretary of Defense Robert Gates has made repeatedly 
(including explicitly about natural resources). ``The challenges 
confronting our nation cannot be dealt with by military means alone,'' 
Gates noted in May 2009. ``They require instead whole-of-government 
approaches.'' \5\ So security itself and how the Nation achieves 
security are being redefined.
---------------------------------------------------------------------------
    \5\ Secretary of Defense Robert M. Gates, ``Opening Statement to 
the Senate Appropriations Committee,'' (30 April 2009).
---------------------------------------------------------------------------
    As part of this redefinition, it is worth considering the ways in 
which ``natural security'' will shape the strategic environment and 
affect U.S. foreign policy, economic, and military goals.\6\ First, 
nations that consume imports of natural resources may be vulnerable to 
disruptions of supplies, with broad economic and security consequences. 
The United States, for example, depends on imports of many strategic 
commodities, particularly oil and non-fuel minerals, for a range of 
economic and defense uses. This import dependence is not in and of 
itself necessarily a threat or even a challenge, and ideally is a force 
for great global prosperity and stability for nations on either end of 
the transaction.
---------------------------------------------------------------------------
    \6\ There has long been a serious debate about the depletion of 
natural resources, and the ways in which ``peak oil'' and other 
absolute scarcity may drive security concerns in the future and even 
cause wars--or whether the adaptability of human society will render 
such concerns moot. Yet that particular debate hits only one aspect of 
the problem. CNAS believes that long before the debate about absolute, 
geological scarcity and human adaptability is settled, there are likely 
to be urgent strategic concerns about natural security. See John 
Tierney, ``Betting the Planet,'' The New York Times Magazine (2 
December 1990).
---------------------------------------------------------------------------
    Import dependence can become a strategic liability, however, when 
the sources are highly concentrated, demand is rising, or substitutes 
for the commodities are limited. In such circumstances, such as the 
Arab oil embargo of 1973, the political and geostrategic motives or 
stability of the suppliers can become a significant problem. In other 
cases, countries with ample supplies can affect market dynamics and 
drive out other producers; the United States, for example, has not 
mined tungsten since 1995, even though the United States has 5 percent 
of global tungsten reserves and imported about 10,000 metric tons in 
2007. Tungsten is used in a range of applications, including important 
defense applications (steel hardening and toughening). One reason for 
U.S. import dependence is that the United States simply cannot compete 
on pricing with China, which possesses two-thirds of the world's 
tungsten reserves.\7\ In other cases, resource rich nations may choose 
to use their wealth as a tool of economic and political power; Russia, 
for example, has used natural gas exports to influence Ukraine, but 
also Turkmenistan, Iran, Turkey, and all of western and Eastern Europe. 
The Presidents of both Venezuela and Iran have explicitly linked energy 
wealth to their ability to counter U.S. foreign policy goals.
---------------------------------------------------------------------------
    \7\ U.S. Department of Defense, ``Reconfiguration of the National 
Defense Stockpile Report to Congress,'' (April 2009).
---------------------------------------------------------------------------
    A complicating factor for import dependence is the lack of 
information about global supply chains. Lack of reliable data on 
reserves-to-production ratios for oil or natural gas can directly 
affect the market. For example, markets played an amplifying role in 
the oil price shock of 2007-08; at the time, it was unclear why prices 
were escalating so much, so fast. In retrospect, oil production had 
stagnated in the face of sharply growing Chinese demand, but it is 
still unclear why production stagnated.\8\ Sharply rising oil prices 
certainly played a part, and perhaps a dominant part, in the ongoing 
global economic crisis, with pervasive security and stability 
implications.\9\ In the case of minerals, there is uncertainty about 
global supply chains. The United States, and this includes for 
militarily significant systems, does not actually know if we are 
vulnerable to supply disruptions of some strategically important 
minerals.\10\ Planning for and managing such uncertainty can be a 
security challenge. Note also that supply chains are physically 
vulnerable: The entire energy supply and distribution infrastructure--
from pipelines to shipping chokepoints to the vast domestic electric 
grid--is highly vulnerable to sabotage, natural disasters, and 
disrepair.
---------------------------------------------------------------------------
    \8\ James D. Hamilton, ``Causes and Consequences of the Oil Shock 
of 2007-2008,'' Brookings Papers on Economic Activity (Washington, DC: 
The Brookings Institution, Spring 2009).
    \9\ See Hamilton (2009) and Blair (25 February 2009).
    \10\ National Research Council, ``Managing Materials for a Twenty 
First Century Military,'' (Washington, DC: The National Academies 
Press, 2008).
---------------------------------------------------------------------------
    Concentration of supply can also be a problem for the supplier 
nations, leading to instability in a variety of ways, including 
conflict over land use between pastoralists and farmers in Darfur or 
tensions over water rights in the Levant. But there is a more 
fundamental way in which resources can be destabilizing, variously 
described as the ``resource curse,'' the ``paradox of plenty,'' and 
other terms. While commodities, such as oil and critical minerals, can 
bring in significant funds, in many parts of the world these proceeds 
come through state-owned companies and go directly into state coffers. 
This has a tendency to promote corruption, undermine accountability, 
increase vulnerability to market forces outside the country's control, 
spur tension, and, in some cases, depress long-term growth. It can even 
facilitate armed rebellion: As one economist has noted, ``where natural 
resources abound in rural areas they are uniquely vulnerable because 
they are difficult to defend, lucrative, and immobile,'' \11\ thus 
attracting rogue groups and vigilantes. Even when commodity prices are 
low, the ``resource curse'' can be tremendously destabilizing, as seen 
with the prospects of civil unrest in Zambia in early 2009, stemming 
from sharply falling copper prices.\12\
---------------------------------------------------------------------------
    \11\ Paul Collier, ``Natural Resources, Development and Conflict: 
Channels of Causation and Policy Interventions,'' Oxford University and 
the World Bank (28 April 2003): 5-6.
    \12\ Karin Brulliard, ``Zambia's Copperbelt Reels From Global 
Crisis: Downturn in Commodities Trade Leads to Devastating Mine 
Closures,'' The Washington Post (25 March 2009): A1.
---------------------------------------------------------------------------
    In addition to these vulnerabilities of supply, high consumption 
rates are creating other weaknesses. More countries are competing for 
the same strategic resources, at a time when access to those resources 
increasingly will be compromised by climate change and loss of 
biodiversity. This has the potential to directly promote tension, mass 
migration, and even interstate conflict, as well as more natural and 
humanitarian disasters, such as last year's devastating cyclone in 
Burma and the collapse of food supplies in Haiti, which led to the fall 
of the government. As disaster rates rise, the U.S. military and 
civilian assistance agencies are likely to be called upon increasingly 
to conduct and support humanitarian and disaster relief operations, 
similar to Operation UNIFIED ASSISTANCE, which responded to the Indian 
Ocean tsunami. These disasters will vary in scale and location and the 
United States and other developed nations will be unable to bring 
relief in all cases. Social unrest and state instability may result, 
which will likely increase and contribute to supply disruptions and 
influence U.S. strategic priorities.
    Finally, while these issues--from natural disasters to geostrategic 
tensions--demonstrate the importance of natural security to the future 
of the Nation, climate change in particular is what CNA has called a 
``threat multiplier,'' \13\ and so warrants today's focus on how 
climate change is a national security problem--and as a challenge with 
national security solutions.
---------------------------------------------------------------------------
    \13\ The CNA Corporation, ``National Security and the Threat of 
Climate Change,'' 2007, http://securityandclimate.cna.org/.
---------------------------------------------------------------------------
           why climate change is a national security problem
    Climate change may well be a predominant national security 
challenge of the 21st century, posing a range of threats to U.S. and 
international security. There will be, for example, direct threats to 
the lives and property of Americans from wildfires, droughts, flooding, 
severe storms, and other climate-related events. Evidence suggests 
there will also be less direct, second-order effects, such as the 
spread of various water- and vector-borne diseases into areas where 
they do not currently flourish. At the same time, there will be 
pervasive new challenges, such as that of mass migrations of threatened 
populations within or into the United States as coastal regions flood 
and agricultural breadbaskets shift or even disappear. Climate-induced 
disasters in other parts of the world, such as East Asia or Europe, may 
affect everything from crucial trade relationships to the safety of 
U.S. troops and their dependents based in those regions. Indeed, the 
direct effects on the military may include challenges to infrastructure 
(i.e., military installations affected by droughts, wildfires, floods, 
sea level rise, and cyclonic storms), the need to adjust or adapt to 
changing conditions, such as longer and more pronounced heatwaves, more 
pervasive and stronger storms at sea, changing undersea conditions, and 
supply chain challenges for food, fuel, and water, and the rise in 
climate-related missions, such as humanitarian and disaster relief.
    Promoting a better understanding among military leaders of the 
causes and consequences of climate change is an essential first step 
for anticipating and responding to these challenges. There is still 
some skepticism within the community on the definition of ``climate 
change,'' and no clear picture of the defense community's role in 
dealing with these issues. At the same time, many military personnel 
remain ambivalent regarding the relative importance of climate change. 
Some officers do perceive the security risks, or see synergies with 
combating terrorism and improving the U.S. ability to project soft 
power. From this perspective, American efforts to limit climate change 
will engender positive benefits in terms of other U.S. national 
security objectives. Other defense experts worry that increasing 
defense efforts regarding climate change will lead to underfunding of 
other priorities. More broadly, many feel that while climate change is 
a serious danger to the United States and our global interests, it is 
not primarily a military threat that can be met with military means. In 
this view, insufficient civilian capacity is the major problem.
    Compounding the multiplicity of these views, the way in which the 
scientific community expresses ``scientific uncertainty'' can 
complicate the military's response to this threat. While there are 
certainly many valid and important debates about the consequences of 
climate change, the way these debates translate to a military community 
is that now is not the time to plan or respond, but rather to wait 
until the scientists figure out whether there are near-term or long-
term consequences. There is an urgent need to communicate the science 
in terms of risk management and plausible scenarios; the defense 
community, after all, has spent billions of dollars building weapons 
and training personnel to deal with risks and plausible threats in the 
future.
    By law, the Department of Defense is required to incorporate 
climate change into all major assessments and planning processes, and 
while this has helped create a new community of interest and expertise, 
not all elements of the defense community seem equally prepared to 
execute this requirement. For example, the June 2008 National Defense 
Strategy offers a fairly perfunctory albeit helpful statement that 
climate change and energy security need to be incorporated into 
planning scenarios, but the recent Joint Operating Environment casts 
doubt on whether climate change itself is real. There are regional 
combatant commanders (generally those not currently engaged in combat 
operations) who have begun to address climate change issues directly, 
as well, but more as a platform for engagement with regional militaries 
than as a national security challenge. There is no intramilitary 
consensus on the future role the U.S. Armed Forces must play in 
preparing for the national security implications of climate change, and 
whether, or to what extent, this should affect future force structure 
decisions.
           why climate change has national security solutions
    As climate change manifests, the United States is likely to come 
under pressure from the international community in two key ways. First, 
as a major, historic contributor to climate change, the United States 
will be expected to take action to cut emissions. Second, nations 
around the world will look to the United States for help in responding 
to natural disasters, if for no other reason than that the United 
States is now and is likely to remain the only nation with sufficient 
capability to respond to major humanitarian and natural disasters. The 
national security community will have a crucial role to play in both 
areas.
    First, as the United States struggles with how to cut emissions of 
greenhouse gases 80 percent by 2050, the defense community will be 
crucial. DOD is the single largest energy consumer in the Nation, 
accounting for 110 million barrels of oil and 3.8 billion kWh of 
electricity in 2006, at a cost of $13.6 billion. Although there is no 
single measure of the Department of Defense's ``carbon footprint,'' 
there is no question it is one of the world's single largest emitters. 
Also, the size of the Department's budget and extensive needs for fuels 
to support military missions can create a significant ``demand pull'' 
that can drive the research and response regarding climate change.
    The U.S. national security community will also be important in 
dealing with the consequences of climate change, bringing valuable 
resources and capabilities (e.g., intelligence, medical, strategic 
lift, and other transport) to efforts to manage the consequences of 
climate change, particularly humanitarian and disaster relief missions. 
The United States generally has a range of capabilities that most other 
nations do not have, and no other nation has in sufficient quantities 
for the contingencies currently anticipated by climate models. Within 
that U.S. capability, the U.S. Department of Defense is better 
resourced than many civilian agencies and more equipped to operate in 
unstable or challenging environments. The 2004 tsunami that devastated 
Indonesia provides a sense of the response a single disaster can 
entail: DOD logged more than 10,000 flight hours and transported more 
than 24 million pounds of relief supplies and equipment to the 
devastated area. Men and women from every service--the Navy, Marines, 
the Army, the Air Force, and the Coast Guard--participated in the 
relief effort.\14\
---------------------------------------------------------------------------
    \14\ U.S. Pacific Command, ``DOD Relief Efforts Factsheet 
Summary,'' as of February 14, 2005. Available at http://www.pacom.mil/
special/0412asia/factsheet.html.
---------------------------------------------------------------------------
    Climate change missions may go beyond humanitarian and disaster 
relief, as well, with Somalia as a case in point. Climate-related 
stresses, such as drought and famine, have played a part in the 
disintegration of Somalia into anarchy. As part of the resulting chaos, 
U.S. forces have been attacking terrorist positions within the country, 
including al-Qaeda affiliates, escorting humanitarian relief convoys, 
countering piracy off the coast, and assisting regional neighbors in 
dealing with the destabilizing effects of refugees and arms 
trafficking.
    Indeed, the global consequences of climate change are likely to 
entail hard choices for the United States in how and where and when to 
respond with humanitarian assistance, military assets, and aid to 
promote resilience. Indeed, as Hurricanes Katrina, Rita, and Ike and 
recent flooding and wildfire responses have demonstrated, some of these 
choices will be on the home front and will engage the National Guard, 
Reserves, and Active Duty Forces. At some point, likely in the new 
future, the Nation is going to need guidance from the Commander in 
Chief as to which contingencies will require or warrant a U.S. 
response, or investment in preparedness and resilience.
    In the meantime, there are a number of actions the civilian and 
military leadership of the Department of Defense can take to prepare 
the Nation for a climate challenged future.

  <bullet> The U.S. military, according to annual polls, is the single 
        most trusted institution in the country. Public recognition of 
        the threat that climate change--and other resource challenges--
        presents will help Americans more properly understand the 
        nature of the challenge.
  <bullet> The types of information the military needs in order to plan 
        and budget for future contingencies--such as vulnerability 
        assessments that layer climate projections, demographic 
        changes, and state fragility--may not currently exist. The raw 
        data may actually be available, but to date there has not been 
        sufficient demand for such information. The U.S. national 
        security community can provide a powerful demand pull in 
        academia, national assets, and private research institutions 
        for such information.
  <bullet> One of the key ways to address global climate change will be 
        through innovation, including a transformation in how the 
        Nation uses energy. How to stimulate such significant 
        innovation is an open question, however, with answers likely to 
        involve extensive public-private cooperation. The Department of 
        Defense can play an important part in this process by 
        stimulating and spurring innovation, although it should be 
        clear that this is not a question of applying defense dollars 
        against civilian needs, but rather solving military challenges. 
        The cost of fuel, the vulnerability of supply chains, and the 
        geostrategic realities of global energy supplies are all valid 
        military concerns.
  <bullet> Emphasize the need to invest in prevention, preparedness, 
        and resilience. Military responses, whether to disasters or 
        state failure such as that in Somalia, are expensive and put 
        lives at risk. To the extent that investments in state 
        stability and infrastructure (such as flood control or improved 
        irrigation) can lessen future military contingencies, DOD 
        leadership should advocate for and make such investments.
  <bullet> The national security community should participate in and 
        push for a refinement in the whole-of-government preparation 
        for and response to global climate change. For the Nation to 
        deal adequately with this challenge, there will need to be 
        strong executive leadership, bipartisan cooperation, and a 
        unifying national strategy. Moreover, this strategy must not 
        only look at energy and climate change, mitigation and 
        adaptation, but also at how all these issues link together.

    Focus on issues of natural resources and security has waxed and 
waned for several decades, but given the global development and modern 
economic trends apparent today, it is a critical time for the U.S. 
security community to deepen its understanding of the intersection of 
natural resources and security and the connections among the various 
issues involved. Climate change is a vital starting point.

    The Chairman. Thank you, Ms. Burke.
    Admiral McGinn.

STATEMENT OF VADM DENNIS McGINN, USN (RET.), MEMBER, CENTER FOR 
       NAVAL ANALYSIS ADVISORY BOARD, LEXINGTON PARK, MD

    Admiral McGinn. Mr. Chairman, Senator Lugar, members of the 
committee, ladies and gentlemen, it is an honor to appear 
before you today to share my views, which are based on 35 years 
of service to our Nation in the U.S. Navy, along such great 
guys as Lee Gunn and under the command of a former Secretary of 
the Navy, Senator Warner.
    Since early last year, I've had the privilege of serving, 
with some of our Nation's most distinguished and retired 
military leaders, on the CNA Military Advisory Board. This 
Military Advisory Board has produced two reports. The first 
examined the national security threats of climate change, and 
has just been mentioned several times in previous testimony. 
And the most recent analyzed the national security threats of 
America's current and future energy posture.
    Clearly, we are in the midst of the most serious global 
financial crisis of our lifetimes. After a year of examining 
our Nation's energy use, it is clear to all members of our 
Military Advisory Board that our economic, energy, climate 
change, and national security challenges are inextricably 
linked and require comprehensive solutions.
    In 2007, the report which was mentioned before, ``National 
Security and the Threat of Climate Change,'' concluded that 
climate change poses a ``serious threat to America's national 
security,'' and acts as a ``threat multiplier for 
instability.'' And this occurs in some of the world's most 
volatile regions, adding tension to even stable regions, 
worsening the likelihood of terrorism, and most likely dragging 
the United States into conflicts over water and other critical 
resource shortages.
    Climate change has the potential, as has been already 
mentioned, to create sustained natural and humanitarian 
disasters on a scale far beyond what we see today, and at a 
greater frequency. These disasters will foster political 
instability, where societal demands for the essentials of life 
exceed the capacity of fragile governments to cope with them.
    Since that 2007 report by the Military Advisory Board, an 
independent National Intelligence Estimate on global climate 
change has confirmed our findings. And as you pointed out, Mr. 
Chairman, there has been an acceleration in the effects of 
climate change that have been documented by a whole array of 
credible scientific studies.
    Some, however, may look at various discussions on climate 
analysis as a reason for delaying taking action. We believe 
that would be the wrong path because, as has been noted before, 
waiting for 100 percent certainty during a crisis can be 
disastrous, especially one with the huge national security 
consequences of climate change. The trends are clear and the 
need for action is compelling.
    It will take, as Senator Warner pointed out, the 
industrialized nations to demonstrate leadership and a 
willingness to change, not just to solve our current economic 
problems, but to address the daunting issues of global climate 
change. And here, the United States has the greatest 
responsibility to lead. If we don't make changes, then others 
will not. Furthermore, other nations will use our inaction as 
an excuse for maintaining the status quo.
    The CNA Military Advisory Board most recently examined our 
national energy posture with a second report entitled, 
``Powering America's Defense: Energy and the Risks to National 
Security.'' We found that America's current energy posture 
constitutes a serious and urgent threat to national security--
militarily, diplomatically, and economically. This latest 
report finds that our energy dependence--not just on foreign 
oil, but all oil; and not just oil, but all fossil fuels--posed 
significant security threats to the military mission and to the 
Nation. Our growing reliance on fossil fuels jeopardizes our 
military and exacts a huge price tag in dollars and, 
potentially, lives. We are, only now, just beginning to 
understand how large that real price tag is.
    Our fossil fuel dependence in the United States does the 
following: undermines our moral authority in diplomacy and 
weakens U.S. international leverage; entangles the United 
States with hostile regimes; undermines our economic stability. 
In our judgment, a business-as-usual approach constitutes a 
threat to our national security from a set of converging risks. 
First, a global market for fossil fuels which is shaped by 
finite supplies, increasing demand, and rising costs--economic 
costs and environmental costs. Second, a growing competition 
and very high potential for conflict over the basics of fuel 
and water resources. Third, destabilization in virtually every 
part of the globe, driven by ongoing climate change. Unless we 
take significant steps to prevent, mitigate, and adapt, climate 
change will lead to an increase in conflicts in many strategic 
regions.
    It is in this context, a world shaped by climate change and 
competition for fossil fuels, that the United States must make 
new energy choices. We call on the President and Congress to 
make achieving energy security in a carbon-constrained world a 
top priority. It requires moving away from fossil fuels and 
diversifying our energy portfolio with low-carbon alternatives. 
It requires putting a price on carbon with thoughtful and 
significant action now.
    Mr. Chairman and members of the committee, with that spirit 
of opportunity foremost in mind, if we act with boldness and 
vision now, future generations of Americans will look back on 
this as a time when we came together as a nation and 
transformed these daunting challenges and worries about energy 
and climate into a better quality of life and a more secure 
future for our world.
    Thank you, Mr. Chairman and members. I look forward to your 
questions.
    [The prepared statement of Admiral McGinn follows:]

Prepared Statement of VADM Dennis McGinn, USN, (Ret.), Member, Military 
                Advisory Board, CNA, Lexington Park, MD

    Mr. Chairman, members of the committee, ladies and gentlemen, it is 
an honor to appear before you today to discuss the critically important 
topics of climate change and global security. Thank you for the 
opportunity to share my views which are based on over 35 years of 
service to our Nation in the United States Navy and as a senior 
executive involved on a daily basis with the science and technology of 
energy, transportation, and the environment.
    Since early last year I have had the privilege of serving with some 
of our Nation's most distinguished and senior retired military leaders 
on the CNA Military Advisory Board.
    This board has produced two reports, the first in April 2007 and 
the latest in May of this year, focused on the very topic of this 
hearing. The first examined the national security threats of climate 
change, and the most recent analyzed the national security threats of 
America's current and future energy posture.
    Before I get to the details of these reports, I have to acknowledge 
the elephant in the room. We are in the midst of the most serious 
global financial crisis of our lifetimes. After a year of examining our 
Nation's energy use, it is clear to all members of our military board 
that our economic, energy, climate change and national security 
challenges are intertwined and codependent. Our past pattern of energy 
use is responsible, in no small measure, for our economic situation 
today. If we do not adequately address our Nation's growing energy 
demand and climate change now, in wise and visionary ways, future 
financial crises will most certainly dwarf this one.
    And, as I will describe during this testimony, our national 
security is dramatically impacted by both our energy use and climate 
change.
    First--the national security impacts of climate change.
    In 2007, after a year-long study, the CNA Military Advisory Board 
produced a report called ``National Security and the Threat of Climate 
Change'' which concluded that climate change poses a ``serious threat 
to America's national security,'' acting as a ``threat multiplier for 
instability'' in some of the world's most volatile regions, adding 
tension to stable regions, worsening terrorism and likely dragging the 
United States into conflicts over water and other critical resource 
shortages. On the most basic level, climate change has the potential to 
create sustained natural and humanitarian disasters on a scale and at a 
frequency far beyond those we see today. The consequences of these 
disasters will likely foster political instability where societal 
demands for the essentials of life exceed the capacity of governments 
to cope.\1\
---------------------------------------------------------------------------
    \1\ CNA Report on ``National Security and the Threat of Climate 
Change.'' http://securityandclimate.cna.org/report/
National%20Security%20and%20the%20Threat%20of%20Climate%20Change
.pdf (April 16, 2007).
---------------------------------------------------------------------------
    Climate change is different from traditional military threats, 
according to CNA Military Advisory Board member VADM Richard Truly 
because it is not like ``some hot spot we're trying to handle. It's 
going to happen to every country and every person in the whole world at 
the same time.'' \2\
---------------------------------------------------------------------------
    \2\ ``Military on Climate Change.'' Washington Post (April 15, 
2007).
---------------------------------------------------------------------------
    Not only will global warming disrupt the environment, but its 
effects will shift the world's balance of power and money.\3\
---------------------------------------------------------------------------
    \3\ Informed Reader column ``How Global Warming Will Play With 
Investors.'' Wall Street Journal (March 9, 2007).
---------------------------------------------------------------------------
    Drought and scant water have already fueled civil conflicts in 
global hot spots like Afghanistan, Nepal, and Sudan, according to 
several new studies. The evidence is fairly clear that sharp downward 
deviations from normal rainfall in fragile societies elevate the risk 
of major conflict.\4\
---------------------------------------------------------------------------
    \4\ Andrew Revkin, ``Global Warming Called Security Threat.'' New 
York Times (April 15, 2007) http://www.ciesin.columbia.edu/pdf/
waterconflict.pdf.
---------------------------------------------------------------------------
    And as you know, The Intergovernmental Panel on Climate Change--the 
world's leading scientific panel on climate change--including more than 
200 distinguished scientists and officials from more than 120 countries 
and the United States--
predicts widening droughts in southern Europe and the Middle East, sub-
Saharan Africa, the American Southwest and Mexico, and flooding that 
could imperil low-lying islands and the crowded river deltas of 
southern Asia.\5\
---------------------------------------------------------------------------
    \5\ http://www.ipcc.ch/SPM6avr07.pdf, James Kanter and Andrew C. 
Revkin, ``Scientists Detail Climate Changes, Poles to Tropics.'' New 
York Times (April 7, 2007). Anne Jolis and Alex MacDonald, ``U.N. Panel 
Reaches Agreement On Climate Change Report.'' Wall Street Journal (Apr. 
6, 2007).
---------------------------------------------------------------------------
    Since the April 2007 CNA Military Advisory Board report was 
published, a National Intelligence Assessment on global climate change 
confirmed our findings. And the scientific community has begun issuing 
reports showing that climate change is occurring at a much faster pace 
than originally believed. The Arctic is a case in point. Two years ago, 
scientists were reporting that the Arctic could be ice-free by 2040. 
Now, a growing number of climatologists are telling us it could happen 
within just a few years.
    Some may look at this changing analysis as a reason, or an excuse, 
for delay. We believe that would be the wrong path. As military 
professionals, we were trained to make decisions in situations defined 
by ambiguous information and little concrete knowledge of the enemy 
intent. We based our decisions on trends, experience, and judgment, 
because waiting for 100 percent certainty during a crisis can be 
disastrous, especially one with the huge national security consequences 
of climate change. And in this case, the trends are clear. Climate 
trends and scientific metrics continue to suggest, in an increasingly 
compelling way, that the global environment is changing.
    In thinking about the best ways to deal with this growing threat, 
we need to keep clearly in mind the close relationship between the 
major challenges we're facing. Energy, security, economics, and climate 
change--these are all connected. It is a system of systems. It is very 
complex. And we need to think of it in that way and not simply address 
small, narrow issues, expecting to create the kind of change needed to 
fundamentally improve our future national security. Interconnected 
challenges require comprehensive solutions.
    It will take the industrialized nations of the world to band 
together to demonstrate leadership and a willingness to change--not 
only to solve our current economic problems, but to address the 
daunting issues related to global climate change. And here, I'd say the 
United States has a responsibility to lead. If we don't make changes, 
then others won't. We need to look for solutions to one problem that 
can be helpful in solving other problems. That's one of the things we 
uncovered in our work--there are steps that can help us economically, 
militarily, diplomatically. And those steps fit with the direction the 
world is heading in considering climate solutions. Those are good and 
much-needed connections.
    As retired Marine Corps Gen. Anthony Zinni, former commander of 
U.S. Central Command said ``The intensity of global temperature change 
can be mitigated somewhat if the U.S. begins leading the way in 
reducing global carbon emissions.'' He concluded, ``We will pay now to 
reduce greenhouse gas emissions today . . . we will pay the price later 
in military terms and that will involve human lives.'' \6\
---------------------------------------------------------------------------
    \6\ Washington Post, ``Military on Climate Change.'' (April 15, 
2007).
---------------------------------------------------------------------------
    Building on a key finding in the 2007 report, that climate change, 
national security, and energy dependence are inextricably intertwined, 
the CNA Military Advisory Board most recently devoted over 1 year to 
examining our national energy posture and this past May released a 
report entitled: ``Powering America's Defense: Energy and the Risks to 
National Security.''
    This report found that America's energy posture constitutes a 
serious and urgent threat to national security--militarily, 
diplomatically, and economically.
    Moving beyond recent studies on the dangers of imported oil, our 
new report finds that not just foreign oil--but all oil--and not just 
oil but all fossil fuels, pose significant security threats to military 
mission and the country, and are ``exploitable by those who wish to do 
us harm.''
    We found that our overreliance on fossil fuels does the following:

  <bullet> Jeopardizes our military and exacts huge price tag in 
        dollars and lives. Our inefficient use of oil adds to the 
        already great risks assumed by our troops. It reduces combat 
        effectiveness. It puts our troops--more directly and more 
        often--in harm's way. Ensuring the flow of oil around the world 
        stretches our military thin--and these are the same men and 
        women already fighting wars on two fronts.
  <bullet> Cripples our foreign policy and weakens U.S. international 
        leverage. Our dependence on oil--not just foreign oil--reduces 
        our leverage internationally and sometimes limits our options. 
        I say all oil, because we simply do not have enough resources 
        in this country to free us from the stranglehold of those who 
        do. We find ourselves entangled with unfriendly rulers and 
        undemocratic nations simply because we need their oil. And we 
        cannot produce enough oil to change this dynamic--we have to 
        wean ourselves from it.
  <bullet> Entangles the United States with hostile regimes. In 2008 we 
        sent $386 billion overseas to pay for oil--much of it going to 
        nations that wish us harm. This is an unprecedented and 
        unsustainable transfer of wealth to other nations. It puts us 
        in the untenable position of funding both sides of the conflict 
        and directly undermines our fight against terror.
  <bullet> Undermines our economic stability. We are in the midst of a 
        financial crisis, and our approach to energy is a key part of 
        the problem. We are heavily dependent on a global petroleum 
        market that is highly volatile. In the last year alone, the 
        per-barrel price of oil climbed as high as $140, and dropped as 
        low as $40. And this price volatility is not limited to oil--
        natural gas and coal prices also had huge spikes in the last 
        year. While these resources may be plentiful, they are 
        increasingly difficult to access, and have associated local 
        environmental impacts, such as slurry spills and smog. The 
        economic and environmental costs are steep. There are many who 
        say we cannot afford to deal with our energy issues right now. 
        But if we don't begin to address our long-term energy profile 
        in significant ways now, future economic crises will dwarf this 
        one.

    We also found that continuing the United States energy usage in a 
business-as-usual manner creates an unacceptably high threat level from 
a series of converging risks, which include:

  <bullet> A market for fossil fuels shaped by finite supplies, 
        increasing demand and rising costs.
  <bullet> Growing competition and conflict over fuel resources.
  <bullet> Destabilization driven by ongoing climate change.

    As our first report showed, unless we take dramatic steps to 
prevent, mitigate, and adapt, climate change will lead to an increase 
in conflicts, and an increase in conflict intensity, all across the 
globe. It's in this context--a world shaped by climate change and 
competition for fossil fuels--that we must make new energy choices.
    Our second report concludes that we cannot pursue energy 
independence by taking steps that would contradict our emerging climate 
policy. Energy security and a sound response to climate change cannot 
be achieved by pursuing more fossil fuels. Our Nation requires 
diversification of energy sources and a serious commitment to renewable 
energy. Not simply for environmental reasons--for national security 
reasons.
    We call on the President and Congress to make achieving energy 
security in a carbon-constrained world a top priority. It requires 
concerted, visionary leadership and continuous, long-term commitment. 
It requires moving away from fossil fuels, and diversifying our energy 
portfolio with low carbon alternatives. It requires a price on carbon. 
And perhaps most importantly, it requires action now.
    By clearly and fully integrating energy security and climate change 
goals into our national security and military planning processes, we 
can benefit the safety of our Nation for years to come. In this regard, 
confronting this energy challenge is paramount for the military--and we 
call on the Department of Defense to take a leadership role in 
transforming the way we get, and use, energy for military operations, 
training, and support. By addressing its own energy security needs, DOD 
can help to stimulate the market for new energy technologies and 
vehicle efficiencies.
    But achieving the end state that America needs, requires a national 
approach and strong leadership at the highest levels of our government.
    Some may be surprised to hear former generals and admirals talk 
about climate change and clean energy, but they shouldn't be. In the 
military, you learn that force protection isn't just about protecting 
weak spots; it's about reducing vulnerabilities well before you get 
into harm's way. That's what this work is about.
    As a member of our board, Gen. Robert Magnus, former Assistant 
Commandant for the Marine Corp said ``Our only choice is whether we're 
going to make the decisions forcefully and in a timely manner. We could 
lag and then we'll find ourselves in a much more serious situation, 
when all of these other costs come on us.''
    Climate change, national security, and energy dependence are an 
interrelated set of global challenges. Without swift and serious 
legislative action and investment, the United States will continue 
barreling headlong toward the catastrophic national security, economic 
and human suffering effects of climate change.
    I conclude by quoting from the foreword to our May 2009 CNA 
Military Advisory Board report: ``The challenges inherent in this suite 
of issues may be daunting, particularly at a time of economic crisis. 
Still, our experience informs us there is good reason for viewing this 
moment in history as an opportunity. We can say, with certainty, that 
we need not exchange benefits in one dimension for harm in another; in 
fact, we have found that the best approaches to energy, climate change, 
and national security may be one in the same.''
    If we act with boldness and vision now, future generations of 
Americans will look back on this as a time when we came together as a 
nation and transformed daunting challenge and worry into opportunity, a 
better quality of life and a more secure future for our world.

    The Chairman. Thank you very much, Admiral.
    Thank you, all of you, for your important testimony here 
today.
    Let me begin the questioning very quickly, because I know 
we have a number of interested colleagues.
    Ms. Burke, the Center for a New American Security, I 
understand, has been engaged in a broad range of scenario 
development--what may occur, how it may occur, and how that may 
impact us. And, in fact, you've created, sort of, war games, 
based on global climate change and security issues. Can you 
share with us the primary outcomes and lessons learned from 
those efforts? Maybe describe to my colleagues what you did.
    Ms. Burke. Yes, sir, I'd be delighted. And I think these 
are very important tools. In a situation like this, where there 
are so many unknowns, you can test some of the possible 
futures, which is exactly what we did.
    Last summer, we had players come from China, from India, 
from Europe, and the United States, and play out a future 
scenario, set in 2015. The scenario was that it's become very 
clear that climate change is real, is caused by human activity, 
no one--there's not any doubt any more, at that point, and many 
climate-related disasters are happening that people attribute 
to climate change. I'm sorry to say, we also posited a future 
in which the world has not been able to do very much to cut 
emissions. Nonetheless, it's clear that 2015 is a breakpoint, 
and our premise was to see if this group, assembled under those 
circumstances, could reach some kind of a breakthrough, 
particularly on technological innovation, emissions cuts, 
collaboration on disaster relief and humanitarian relief, and 
also other kinds of assistance.
    What we found was very interesting and is being played out 
right now in the lead-up to the Copenhagen negotiations, is 
that they were not able to reach any kind of an agreement. You 
would think that is a disheartening result, but that result 
also may suggest where some of the opportunities and challenges 
lie.
    For example, what we just saw with Secretary Clinton's 
visit to India tracked very closely with what we saw in the 
game, which is that the Indians were not willing to make any 
concessions whatsoever; and it's understandable; in the 
circumstances. In the context of the game, however, there was 
room for negotiation in the fact that the Indians perceived 
their vulnerability to natural disasters as a high negotiating 
priority. Of course, other countries did not necessarily think 
India's vulnerability was a high priority. It's an opportunity 
for collaboration and for tradeoffs.
    So, through this game, I would say that we identified a 
number of opportunities. I think my biggest takeaway was 
actually one of the questions we wanted to test in the first 
place: If the United States makes a marked change in its 
position, and wants to be a leader on climate change, and is 
willing to make real concessions, did it matter, in the context 
of those other major emitters? What we found is that it 
mattered, in the sense that it gave the United States more 
credibility, but also that it mattered far more what China is 
willing to do--or unwilling to do, as the case may be. And 
China--and keep in mind, we had Chinese nationals there, 
playing in the game--was unwilling to do anything, without 
being paid or enabled in doing it, period. They were extremely 
conservative about agreeing to any tradeoffs. I suspect that's 
the way it's going to be in the real negotiations.
    The Chairman. Well, thank you. That's very interesting.
    General Zinni, former CENTCOM commander, has said--and I, 
sort of, paraphrase him; I don't have the exact language in 
front of me--but, he said, basically, that climate change is 
going to result in real risk to our troops, and it will involve 
a ``human toll.''
    Do you agree with that, Admiral McGinn? Admiral Gunn? John 
Warner?
    Admiral McGinn. Yes, sir. I am familiar with General 
Zinni's thoughts on this, and I think he's quite right. He said 
several things in the 2007 report that I think are relevant to 
this hearing. The first was that there is a real cost to this--
this climate change--and it will be measured in human lives. 
And whatever other cost that the Nation has to bear in dealing 
with it will shrink in comparison, they'll seem very, very 
infinitesimal in comparison to the costs that we must pay in 
the future, when our backs are against the wall.
    The other point that he made so forcefully--and this is 
particularly significant coming from a former commander of the 
U.S. Central Command--is that this will create the conditions--
and indeed, accelerate the conditions--as a breeding ground for 
international terrorism.
    The Chairman. Ms. Burke, I think you've already answered, 
to some degree.
    Admiral Gunn.
    Admiral Gunn. I think, following on Admiral McGinn's 
comments, a couple of things are worth noting. One is that, 
stemming from the issues about which I testified, and the other 
comments of those on the panel, I think it's easy to believe 
that anticipation and preparation can therefore result in the 
saving of many lives. Lives are at risk at all levels, from the 
agrarian economies all the way through the fully developed 
world, among civilians and people who are more directly 
involved in defense issues. And I think that the answer--one of 
the answers, when we're asked the question, ``What the heck is 
the approach that you recommend?'' has got to be, that we have 
to understand the threat, we have to anticipate a range of 
consequences for those threats, and we have to prepare for 
those most likely, and we have to do it quickly.
    The Chairman. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I look back on my days here--one of my most interesting 
trips was with Secretary of Defense Bill Cohen, and I took a 
trip with Zinni through the region when he was the commander 
out there. I come back to the word ``commander'' and the 
troops. Commander in Chief is the President. And the President, 
I think, has done a very credible job in showing leadership on 
this issue, and I anticipate he'll even be stronger in that 
leadership in the time to come. And that's why I, respectfully, 
urge both the chair and the ranking member to take into 
consideration the public acclaim and confidence in the men and 
women in the Armed Forces, and particularly those in uniform 
who have to do the fighting, and they deserve a title in this 
bill. You call it an ``amalgamated bill.'' There should be a 
title in there on the subject that this chairman and ranking 
member and the committee are addressing today, and we're 
participating in--witnesses. It's going to take a lot of 
engines pulling this train to get this legislation through. And 
I think you've got a title on energy, and a title on security, 
and a title on diplomacy, which this committee will work on. 
All of those things are needed to pull this thing through, 
given the depth of the fear and concern that lingers on this 
issue now, in our public. We've got to convince them.
    The Chairman. Good advice.
    Senator Lugar.
    Senator Lugar. Ms. Burke, I'm curious whether, at your 
institute or in these games that you have described--were there 
metrics that you were able to develop that indicated what kind 
of change was occurring in this country, quite apart from China 
or India or Russia or other places? In other words, when we 
talk about a baseline, and up or down 5 or 10 percent, how do 
you determine the baseline?
    Ms. Burke. Well, sir, we were very ably assisted in finding 
that baseline by Oak Ridge National Laboratory. They provided 
actual projections, based on real observations, and also 
climate mathematical models, for what was likely to happen. We 
did apply this analysis at a regional level, as well. We were 
able to make some projections about what would happen, as far 
as resource scarcity and migration, in each country represented 
in the game. And these were complex projections: Oak Ridge 
National Laboratory had a demographer on staff, for example, 
who helped us figure out where people were likely to move in 
the future. We actually had very credible projections, based on 
Oak Ridge's research, for what might happen in each of these 
regions.
    Senator Lugar. The reason I ask is, not only is there a 
problem of a general public credibility, but it seems to me, 
aside from the testimony of the scientists and the military, 
people we've talked about, hopefully there will come, someday, 
some type of graphic, such as we used to see, as to how the 
national debt is going up. A person can go out and see the 
figures rising. One can say, ``Well, how could you know, to the 
dollar?'' Probably not. But, there was a general indicator. The 
public had something to look at. The problem that I find, with 
my constituents, is that a majority are not really convinced 
there is that much of a problem.
    Now, we will have this hearing today, with knowledgeable 
people like yourselves, and one can say, ``Well, after all, 
whether our constituents understand it or not, or whether they 
believe it, we have a responsibility--and I accept that fact. 
But, this will only go so far. As Senator Warner has suggested, 
let us say Copenhagen occurs and, as you suggested, the 
response of the Indians, for the moment, was not very pleasant 
for Secretary Clinton, but this has been true, really, with all 
of us dealing with the Chinese. And they are very 
knowledgeable, and they are doing a lot of things, in nuclear 
energy. During the Olympics, temporarily, they got some of the 
pollution out of the capital so that the athletes could 
operate. Although, it came back, in due course.
    Now, the problem here, for them, is enormous, given the 
numbers of people and the history of the country. And we 
understand that. But as Senator Warner suggested, maybe the 
timeframe is not right--1 year, 2 years, 3 years. We proceed 
along, and the United States public, who was not altogether 
convinced to begin with, says, ``Listen, we're being taken.'' 
Now, this is likely to bring, as it already has in the House 
legislation, people who say, ``Well, we're going to exact some 
penalties on those Chinese and on the Indians.'' Trade 
penalties, for example. Those who were already protectionists 
in our country, would say, ``American jobs have been going to 
these places for a long time,'' and ``This is a good chance to 
cure a couple of things, as a matter of fact.'' And before 
long, we're off to the races. Meanwhile, we're also sending 
Secretary Geithner over there, meeting Chinese students, who 
are skeptical now, about how the dollar is working out. In 
other words, ``Should we diversify our portfolio?'' Well, we 
say, ``Certainly not. We need every one of your buyers of U.S. 
Treasury bonds,'' because we've got huge trillion-dollar debts 
to pay.
    I mention all of this, not to confuse the issue before us 
today, but to say that this is crucial, right at the beginning, 
to have some understanding among the major polluters, of which 
we are one of the three, along with China and India. Others 
contribute, but this is where the big three is. And if two of 
the three are indicating, ``not us, not now, you've had a 
century to develop so compensate us if you're that concerned 
about it.'' And the American public says, ``What do you mean, 
compensate? Money to the Chinese, to the Indians, in one form 
or other? Not on your life.''
    I'm just wondering if there is some way, despite the 
testimony or the gravity of military people or institutions 
such as yours, Ms. Burke, that we can get some degree of 
measurement of what we are doing right now, quite apart from 
what we might suggest to the Chinese. Because I have heard 
testimony here, which was not convincing, that their guidelines 
are very reliable. Ten percent from where? Can you comment at 
all on this general series of questions?
    Ms. Burke. Yes, sir. First of all, your first point, that 
we need some kind of environmental indicators--leading 
environmental indicators, if you will--we just had a meeting 
with policymakers and scientists, last night, where I think 
that was the general consensus, that we have leading economic 
indicators and we need leading environmental indicators.
    Senator Lugar. Good.
    Ms. Burke. And, I think there are plenty of actual 
observations to base that on. And if you've been to Rocky 
Mountain National Park recently, you'll see what Governor 
Ritter has been talking about. Two-thirds of the trees on the 
west side of the park are dead. Perhaps people don't need as 
much convincing as they used to.
    As for China, their position is understandable, and our 
position is understandable. The United States has engaged in 
difficult diplomacy before, over things far more consequential, 
even, such as thermonuclear war. We can do this with the 
Chinese. It's not going to be easy. It's not going to be easy 
to convince the American people. But this is in our national 
security interests, and it's also in theirs. And I think, 
again, people need less convincing than they used to. China is 
starting to experience public unrest, as well, over some of 
their environmental problems, and people are starting to see 
the consequences of climate change there, as well. There is 
going to be some room to move, particularly, when it comes into 
investing in clean technologies and an energy transformation.
    Again, China and the United States, as the two biggest 
consumers of energy in the world, have a lot of commonality of 
interests in finding a way around our energy security problems. 
Many of the needed investments are going to be in energy 
sources and technologies other than fossil fuels. There's a 
commonality of interests there that can pull us together, not 
just the divisions, which we are going to have to talk a great 
deal about.
    Senator Lugar. Thank you very much.
    The Chairman. Thank you, Senator Lugar.
    Senator Casey.
    Senator Casey. Mr. Chairman, thank you very much. And I 
want to thank our panel, and, first of all, want to extend a 
welcome, again, to Senator Warner. Welcome back, I should say.
    I want to say, in a personal way, there are a lot of things 
we could say about Senator Warner's leadership in the Senate 
over 30 years, but as someone who has been here 2\1/2\ years, 
in my first 2 years, you tend to look to people who have been 
there a while for good examples. And I think I can speak for 
other new Senators and say he was a great example of--in terms 
of his work ethic, in terms of the way he served his State and 
the country, but especially, in terms of his own ability to 
show us how to display mutual respect and to keep the Senate on 
a path which was one of constructive camaraderie, and good 
examples of bipartisanship. We're grateful for that.
    Senator Warner. Thank you very much, Senator.
    Senator Casey. Because we benefit from that, and the 
country does, as well. And I want to thank you for your 
leadership on this issue, both in the Senate and now, as a 
statesman, maybe not fully retired yet. We're grateful for 
that.
    And, I guess to the panel--I won't take all of my time, but 
I wanted to focus on two issues. Like a lot of people, I 
learned about this issue in ways you don't expect. I happened 
to be reading an article in Time magazine a couple of years 
ago--I think it was 2005--and there was one sentence that 
jumped off the page--and I was not in the middle of this issue 
in the way that Senator Kerry has been for a couple of decades 
now, in the middle of the science, and the middle of the 
advocacy about the urgency of this issue of global warming and 
the effects on human life--but in this article in Time 
magazine, one sentence said the following--and I'm 
paraphrasing, but this is pretty close to what it said, that 
``in 30 years, the percent of the Earth's surface that was the 
subject of drought had doubled.'' That's all it said. And at 
that--when I read that, almost at that moment, or soon 
thereafter, I thought to myself, ``Well, if the percent of the 
Earth's surface subject to drought has doubled, drought means 
starvation, and starvation means darkness and death.'' That's 
all you need to know. And, ever since that time, that's what 
this issue has meant to me, that this is a threat to human 
life, when people starve.
    It's only more recently, I think, that many of us, 
including the American people, I think, have made other 
connections between this issue and national security. So, your 
testimony and your witness and your scholarship and your 
advocacy gives us the opportunity to make that connection.
    The question I have is related to some of the work we've 
all done on monitoring what's happening in Pakistan, just one 
country, which has layers of problems or challenges or threats, 
whether it's the nuclear challenge or whether it's the 
challenge posed by the Taliban and, therefore, impacting the 
nuclear threat. All of you pointed to this, the connection 
between drought and threats to places like Pakistan.
    I'd like to ask you a two-part question. One is, describe 
this connection briefly. And, two, Do you think there are 
better ways that we can make these points in the Senate, in 
terms of public advocacy or outreach campaigns, other than the 
work you've done? I know you've tried to bring the scholarship 
to light. But, I guess I would ask you to just walk through 
that threat, and then suggestions for how we can continue to 
make this a more urgent matter with the American people.
    Senator Warner. Well, first I would add, the complexity of 
this subject is just awesome. And I sort of jokingly talk to my 
colleagues--Ms. Burke, who's an outstanding advocate, as you 
saw here just moments ago, and I have debated a little bit. 
We've got to keep it simple, so that the public understands it, 
because they're paying the bills. I find the public is quite 
inquisitive about this whole concept of ``getting green.'' And 
if you put the question to them, ``Well, what if we do nothing? 
What are the consequences?'' then you begin to really get--
stimulate some of their thinking. And I often use that as a 
little rhetorical comeback. I just think that this is the time 
that Congress has got to forcefully lead. That's what the--we 
can't follow the public, we've got to lead the public. And if 
we can keep this thing--to a common understanding, I think we 
can get the train out of the station and start it. And then 
it's going to be up to, really, basically, diplomacy, to keep 
the train running, so that we all bear an equal share of the 
burden on this thing.
    So, we've got to start, we've got to jump out front, and 
we've got to lead. Remember that old phrase about the Frenchman 
that said--he asked his staff, ``Look out the window. Which way 
is the crowd going, so I can run out there and jump in front of 
it.'' What was that? Somebody knows better--that phrase. 
[Laughter.]
    Senator Casey. Good advice. [Laughter.]
    Admiral.
    Admiral Gunn. I said, during my testimony, something that 
was almost flip, about beautiful vistas being maintained and 
the other motivations for dealing with climate change and 
global warming. Too often, that kind of argument becomes the 
topic of discussion in public discourse. And I agree that the 
preservation of small wildlife is important. I agree very much 
with what's been said here today about the loss of forests. I 
think these and the increasing desertification are terribly 
important manifestations of the problem that's facing us. But, 
I think that creating a sense of urgency about dealing with 
them, about appreciating and preparing for these problems, is 
only going to come from characterizing them as important 
components of national security. I think talking about the way 
Americans, in uniform and out, have been required to be engaged 
around the world already, and increasingly will be by various 
dimensions of this problem, is a way to link the American 
people to the kinds of actions that they need to authorize us 
to take on their behalf.
    Senator Casey. Thank you.
    I know I'm out of time, but maybe what we can do is if both 
of you could just submit something for the record. That might 
be faster.
    [The requested information follows:]

         Written Response Submitted for the Record by Ms. Burke

    While there are many cases in which climate change will combine 
with economic, political, and social factors in ways that pose national 
security challenges to the United States, Pakistan is an especially 
stark example.
    Today, Pakistan is the only state with nuclear weapons ranked at 
highest risk for state failure in the Fund for Peace/Foreign Policy 
Failed States Index. By this ranking, even North Korea is more stable. 
Pakistan's instability, internal governance, economic fragility, and 
social divisions are of constant concern to the United States and our 
allies. Pakistan wrestles with conflicts among a variety of factions 
within its borders, and its government does not have a monopoly on 
control of its territory. The internal situation contributes to stress 
with Pakistan's neighbors, as well. Beyond this instability, the United 
States is directly vulnerable to many of the effects of Pakistan's 
troubles. With a porous border between Afghanistan and Pakistan, the 
terrorists and insurgent groups that the United States and NATO are 
working to weaken and suppress have gained control of territory in both 
countries and use their ease of movement between the two to their 
advantage. The ongoing instability in Pakistan is also affecting 
logistics lines supplying U.S. and NATO troops in Afghanistan.
    Severe natural resource issues plaguing the country are part and 
parcel of Pakistan's challenges. Its freshwater availability has 
declined, and in combination with a growing and urbanizing population, 
potable water per capita has dropped from 5,000 to 1,500 cubic meters 
in the past 50 years. This water situation is in part due to decreasing 
rainfall, and the resulting increases in drought and aridity of recent 
years are affecting Pakistan's agricultural sector and thereby 
jeopardizing the livelihoods of about 45 percent of the population. The 
water and agriculture troubles speak to bigger environmental management 
concerns, including the highest deforestation rate in South Asia.
    Climate change projections show that all of these problems are 
likely to grow worse. The shrinking Himalayan glaciers will affect--
possibly drastically--freshwater supplies, food production, and even 
the ability to produce electricity (one-third of the country's energy 
is supplied by hydropower). The economic, social, political, and 
therefore security implications are stark.
    The example of Pakistan shows clearly that failing and fragile 
states are difficult, multifaceted problems for U.S. security. Indeed, 
environmental considerations are an inherent part of the U.S. strategy 
for Afghanistan, with its emphasis on tools such as economic stability 
and agricultural productivity. Stabilizing the region and defeating the 
threat our troops are there to face may well require addressing the 
natural resource situation and considering how climate change might 
affect the chances for long-term success.
                                 ______
                                 

    Written Response Submitted for the Record by Vice Admiral McGinn

    Climate change and energy security are inextricably linked national 
security threats, and the threats will escalate if we do nothing. Not 
only will global warming disrupt the environment, but its effects will 
shift the world's balance of power and money.\1\ Acting now will thus 
play a vital role in determining our national security--militarily, 
diplomatically, and economically.
    Here's how climate change poses national security risks, and why we 
must prepare now to prepare for and mitigate these risks:
    In 2007, the CNA Military Advisory Board produced a report called 
``National Security and the Threat of Climate Change'' which concluded 
that climate change acts as a ``threat multiplier for instability'' in 
some of the world's most volatile regions, adding tension to stable 
regions, worsening terrorism and likely dragging the United States into 
conflicts over water, crops, fuel and other critical resource 
shortages. On the most basic level, climate change has the potential to 
create sustained natural and humanitarian disasters on a scale and at a 
frequency far beyond those we see today. Drought and scant water have 
already fueled civil conflicts in global hot spots like Afghanistan, 
Nepal and Sudan, according to several new studies. the evidence is 
fairly clear that sharp downward deviations from normal rainfall in 
fragile societies elevate the risk of major conflict.\2\
    And climate change-induced conflict will likely intensify. The 
Intergovernmental Panel on Climate Change--the world's leading 
scientific panel on climate change--including more than 200 
distinguished scientists and officials from more than 120 countries and 
the U.S.--predicts widening droughts in southern Europe and the Middle 
East, sub-Saharan Africa, the American Southwest and Mexico, and 
flooding that could imperil low-lying islands and the crowded river 
deltas of southern Asia.\3\ Without steps now to prepare for and 
mitigate regional conflicts caused by shortages of vital resources, the 
U.S. military risks become dangerously overextended.
    We must also change our energy posture to ensure our national 
security and to reduce climate change. Last May, CNA released a report 
entitled: ``Powering America's Defense: Energy and the Risks to 
National Security.'' This report found that America's energy posture 
constitutes a serious and urgent threat to national security--
militarily, diplomatically and economically.
    The new report finds that not just foreign oil--but all oil--and 
not just oil but all fossil fuels, pose significant security threats to 
military mission and the country, and are exploitable by those who wish 
to do us harm. Our overreliance on fossil fuels does the following:

  <bullet> Stretches our military thin by requiring our military to 
        ensure flow of oil around the world, putting at increased risk 
        the same men and women already fighting wars on two fronts.
  <bullet> Jeopardizes military operations in the air, at sea, or on 
        the ground, which are in many ways driven by the limits of the 
        range and performance of vehicles and how they consume fuel. 
        Fossil fuel inefficiency, for example, leaves our military 
        vulnerable to attack because of the long supply lines needed to 
        deliver fuel to our ground combat operations. In Afghanistan, 
        our supply lines sometimes stretch for miles. The more 
        efficient use of fuel we develop, we will reduce casualties and 
        increase combat effectiveness.
  <bullet> Cripples our foreign policy and weakens U.S. international 
        leverage. Our dependence on oil--not just foreign oil--reduces 
        our international clout and sometimes limits our diplomatic and 
        economic options. This involves all oil, because we simply do 
        not have enough resources in this country to free us from the 
        stranglehold of foreign oil producers. We find ourselves 
        entangled with unfriendly rulers and undemocratic nations 
        simply because we need their oil.
  <bullet> Funds our enemies. In 2008, we sent $386 billion overseas to 
        pay for oil--much of it going to nations that wish us harm. 
        This is an unprecedented and unsustainable transfer of wealth 
        to other nations. It puts us in the untenable position of 
        funding both sides of the conflict and directly undermines our 
        fight against terror.
  <bullet> Undermines the economic stability on which our national 
        security depends. We are in the midst of a financial crisis, 
        and our approach to energy is a key part of the problem. We are 
        heavily dependent on a global petroleum market that is highly 
        volatile. In the last year alone, the per-barrel price of oil 
        climbed as high as $140, and dropped as low as $40. And this 
        price volatility is not limited to oil--natural gas and coal 
        prices also had huge spikes in the last year. While these 
        resources may be plentiful, they are increasingly difficult to 
        assess, and have associated local environmental impacts, such 
        as slurry spills and smog. The economic and environmental costs 
        are steep. There are many who say we cannot afford to deal with 
        our energy issues right now. But if we don't begin to address 
        our long-term energy profile in significant ways now, future 
        economic crises will dwarf this one.

    Our fragile electricity grid also poses national security risks. 
Nearly all our stateside military installations depend on the national 
grid, which is currently vulnerable to terrorist attack and mechanical 
malfunction. An upgraded electrical grid would increase the security of 
communications and combat operations.
    By clearly and full integrating energy security and climate change 
goals into our national security and military planning processes, we 
can increase the safety of our nation for years to come. By addressing 
its own energy security needs, the Department of Defense can also help 
to stimulate the market for new energy technologies and vehicle 
efficiencies. This will in turn give our nation the global competitive 
advantage we need to ensure the economic security that is key to our 
national security.
    We call on the President and Congress to make achieving energy 
security in a carbon-constrained world a top priority. It requires 
concerted, visionary leadership and continuous, long-term commitment. 
It requires moving away from fossil fuels, and diversifying our energy 
portolio with low carbon alternatives. It rquires a price on carbon. 
And perhaps most importantly, it requires action now. For either we act 
now, and strengthen our stature as a global leader, or wait--and incur 
a far greater price later.
----------------
    \1\ Informed Reader column ``How Global Warming Will Play With 
Investors,'' Wall Street Journal (March 9, 2007).
    \2\ Revkin, Andrew ``Global Warming Called Security Threat,'' New 
York Times (April 15, 2007) http://www.ciesin.columbia.edu/pdf/
waterconflict.pdf.
    \3\ http://www.ipcc.ch/SPM6avr07.pdf. Kanter, James and Andrew C. 
Revkin. ``Scientists Detail Climate Changes, Poles to Tropics,'' New 
York Times (April 7, 2007). Jolis, Anne and Alex MacDonald, ``U.N. 
Panel Reaches Agreement on Climate-Change Report,'' Wall Street Journal 
(Apr. 6, 2007).

    Senator Casey. Thank you very much.
    The Chairman. Thank you, Senator Casey.
    Senator Corker.
    Senator Corker. Thank you for being here.
    And, Senator Warner, I almost hate for my voice to come out 
over the microphone after listening to you, and your eloquent 
way of talking. And thank all of you for your public service.
    I have to think, with all the folks that are affiliated 
with the Navy, and daughters of Navy, that when you look at the 
issue of us and India and China, all of which are nuclear 
countries, and we know that, obviously--that it has to be 
awfully frustrating, since so many of your colleagues, for 50 
years or so, have served on submarines that were powered by 
nuclear, that we're having a discourse in this country about 
nuclear today and that we've been so far behind. France is one 
of the few countries that is able to adequately meet the 
agreement they dealt with at Kyoto.
    So, let me just--if you would, talk to me about your 
frustrations there. And wouldn't we be--our country is a 
country that likes to build for the future, and lead--and would 
we not be, really, well off as a country, if we're concerned 
about climate change? Some of my colleagues are talking about 
building 100 new nuclear facilities over the next 20 years To 
embrace that fully, and to also cause India and China, with our 
leadership and new technologies, to embrace that fully, so 
that, instead of looking at a wall that diminishes economically 
in some ways--I know that China and India, some of their--their 
greatest threat is really, today, not climate change, by any 
means, but it's poverty within their own countries. Right? I 
mean, they're concerned about their populations and the 
instability that comes with people's standard of living. And I 
just wonder if you might comment on that. I--surely, it has to 
frustrate you, coming from where you come from, that this 
country is not embarking on a massive project, and working with 
China and India to do the same--nuclear countries, already--to 
build many, many nuclear facilities to combat this issue that 
you're so concerned about.
    Senator Warner. Well, I'll lead off, Senator. I was 
privileged to--when I was Under Secretary--Secretary of the 
Navy for 5 years, we had practically 100 nuclear plants--
basically at sea, several on shore, for testing, and so forth--
operating. And the safety record of the United States Navy is 
second to none. And it can be done. The technology is known. 
And I think it's essential that part of this climate change 
legislation--energy--slash energy--contain provisions on moving 
America ahead with nuclear energy. It clearly--the 
environmental community will have to acknowledge, the least 
possible emitter of CO2. And if CO2 is the enemy, then we 
should start with that factor that can contribute very 
positively.
    And talk about India--it was rather interesting--the 
Secretary of State is--one of her agenda items was some 
exchange of technology. Perhaps we can assist in building some 
of those plants in India. And I think, we've got look at the--
this committee will look at international offsets. As we go 
forward, hopefully, with this bill, our industrial base will be 
looking for offsets. We may be able to strengthen our 
relationship with these developing countries by finding offsets 
that they--the domestic companies here can purchase from 
abroad.
    So, there are a lot of things that can be done, and health 
can be improved, but--if we don't do anything, Senator, what's 
going to happen is, the EPA is going to be saddled with trying 
to set up a regulatory regime to control parts of this--not 
all; they can't do it all--parts of it. And that one agency is 
ill-equipped--I think they'd be the first to acknowledge--to 
take on the magnitude of this task.
    This legislation is imperative. Absolutely imperative. And 
it should have a major section on nuclear, and that comes down 
to the dollar bill. We've got to figure out ways to help them 
finance these startup plants.
    Senator Corker. Does anybody have differing testimony? I'll 
move on--OK.
    Admiral McGinn. In support of what Senator Warner has said, 
Senator, you know, it's been said many ways that there's no 
silver bullet to solve these challenges of economic security, 
energy security, and national security. But, one of my 
colleagues on the Military Advisory Board said, ``but there may 
be silver buckshot.'' And I think one of those shot are, in 
fact, nuclear power. It's not going to answer all of our needs, 
in terms of either climate change or energy security, but it 
can be part of a solution.
    I would note that all of those buckshots are, in fact, made 
of silver, however, and they carry a fairly hefty price tag, so 
we have to be very, very careful in going about the cost-
benefit/risk analysis, where we put money into--American money 
into these various technologies. Others that are absolutely 
necessary--energy efficiency, across the board, and our 
transportation sector--and I'm applying this to our military 
operations, as well--all of the clean technologies of solar and 
wind, biomass, et cetera, and some of the more emergent things, 
like cellulosic ethanol. All of those are also silver buckshot, 
and we need to apply them in the right measure, at the right 
time.
    Senator Corker. You know, obviously, what brings you to 
this committee today is looking at strategic risk that we face 
as a country. And I know that climate change is one that 
we've--you've focused on today. But, Ms. Burke, I know you 
mentioned Somalia, and I wonder if this concerns you also. I 
was just in Darfur, and spent some time with the Sudanese 
Government also talking about the agreement between the north-
south. The more imminent issue is large populations--regardless 
of climate change--large populations that are using water 
resources in a concentrated way. And no matter what happens 
with the issue of climate change, the massive population growth 
that's occurring is creating tremendous instability in those 
parts of the world that have limited resources. And I'm just 
wondering if it frustrates you that that more imminent issue 
that's right before us today, that is a powder keg, 
especially--I know Senator Kerry has had leadership on this 
issue--that if we don't deal with the issue of population 
growth and limited resources and density over aquifers, that we 
have even more imminent issues. I'd just like for you all to 
comment on that.
    Ms. Burke. Yes, sir. Population is certainly part of the 
picture, and it's one of the reasons that there is so much 
pressure on all these resources.
    What is truly sad in these circumstances is that there are 
a lot of management strategies that could make those situations 
better. And, in fact, Senator, your home State of Tennessee has 
been grappling with these issues, itself. I think you had a 
border war with Georgia over water, didn't you?
    Senator Corker. It was a skirmish. [Laughter.]
    Ms. Burke. Yes, sir.
    Senator Corker. It's pretty well settled, yes.
    Ms. Burke. Yes. These are really difficult issues, and the 
growing populations are definitely putting pressure, but also, 
it's the growing expectations of these populations, for the 
same things that we enjoy, including things like cell phones, 
that require certain minerals. And incidentally, also, nuclear 
power requires water and other resources. These--all of these 
things fit together. The demands of growing world population 
are going to be a challenge.
    Senator Corker. Actually, I'd--there was a--I know my time 
is up--there's new technologies that, hopefully, are going to 
be deployed in Tennessee, which is a leader in our country as 
it relates to energy, for nuclear reactors that are actually 
air-cooled. So, it's one of those--it's going to be one of 
those few components that doesn't actually consume water, and 
actually, as you know, it's a system that puts it back in 
rivers, but when this air-cooled--it's not even--it's not even 
doing that.
    So, I thank you for your testimony and your leadership. I 
do know there's a lot of unintended consequences, some of which 
Senator Lugar pointed to. I was just recently looking at the 
conflicts, firsthand, in Ukraine and other places, with fuel-
switching that takes place with policies, and then, all of a 
sudden, countries like Russia, sort of, holding the valve to 
Europe. I hope that we will move through this in a thoughtful 
manner, and I certainly thank you for your testimony.
    Senator Warner. Senator, could I just say, first, thanks 
for making that trip. I went to that region with Senator Levin 
during the Somalia problems. Severity of the drought in that 
whole part of Africa has precipitated so much of this 
instability, certainly Somalia's. Isn't that an example that we 
can, frankly, tell the naysayers on climate change, ``Explain 
that.'' You talk about that aquifer. It's down deep, and it's 
going deeper and deeper, because Mother Nature's not 
replenishing, from the surface, the water to go back into that 
aquifer. That's an example of the need to recognize climate 
change is with us today.
    Senator Corker. If I could, just to set the record 
straight, it's actually not near as much that issue as it is, 
again, concentrations of population that are taking the water 
out more rapidly than it naturally can be replenished. But, 
certainly those are complicating factors, and I appreciate you 
bringing it up.
    The Chairman. Let me just say, having been there laying the 
path for you, Senator, that there's been a 30-percent reduction 
in rainfall in that part of the area. And there has been--I 
forget the percentage, but a very significant percentage of 
increase of desertification as a result. So, that has actually 
displaced people. And then the tribal component gets involved. 
So--Time magazine, I think, a couple years ago, had a headline 
saying, ``How to Prevent the Next Darfur: Get Serious About 
Climate Change.'' That's what they said. You know, the dots are 
connected here.
    Let me ask those of you with the military experience here, 
Is this going to require us to rethink the nature of our force 
structure, and the missions themselves, and therefore the 
training and recruitment, et cetera? And, if so, is this a part 
of the Quadrennial Review now?
    Senator Warner. Mr. Chairman, that was a statute that 
Senator Clinton and I put in. It's requiring the Quadrennial 
Review to specifically project the future.
    The Chairman. Specifically to project this.
    Senator Warner. And it's right in the law. It is in the 
2008 authorization.
    The Chairman. I remember you said that earlier, but I 
appreciate that.
    Senator Warner. Yes.
    The Chairman. Yes. And what about the force--I mean, what 
do you envision as a consequence of this? You know, I saw what 
we did in the earthquake assistance that we provided in 
Pakistan a few years ago. And, more recently, we've been very 
involved in trying to get supplies into Pakistan for the 
displaced persons from the Swat Valley. I mean, if that is 
replicated many times over in various places, it would appear 
that unless we create some separate force our military forces 
are going to be highly involved in this kind of response action 
which requires a different kind of delivery system, different 
kind of lift, different kind of training, and so forth. Is that 
accurate----
    Senator Warner. I would----
    The Chairman [continuing]. Admiral?
    Senator Warner [continuing]. Certainly say it's dead-on. 
But, I yield to my colleagues, right here, who've spent 30-plus 
years in uniform. Let them be on the record, too.
    The Chairman. Admiral Gunn.
    Admiral Gunn. You may remember Operation Sea Angel, 
immediately following Desert Storm. I'll just remind people 
what that was about. ADM Steve Clarey was bringing back two 
Marine Expeditionary Brigades from Desert Storm, aboard 19 
amphibious ships, plus escorts. And their objective was just to 
go home. They were proceeding through the Indian Ocean, and one 
of those horrible typhoons struck Bangladesh. They turned left, 
at the National Command Authority's direction, followed the 
typhoon into the Bay of Bengal, and provided what I believe, 
prior to the Tsunami relief effort, was the largest relief 
effort undertaken, certainly by the U.S. Navy and the Marine 
Corps together. And I think--you are aware of what's aboard an 
amphibious force like that, that's usable. I mean, reverse 
osmosis water purification units, trucks, tracked vehicles, 
landing craft, air-cushion vehicles, helicopters, bridging 
units, and a medical capability that was prepared for and used 
in a war.
    By the way, Operation Sea Angel was named, not by the U.S. 
Defense Department, but by the Bengalis. Their description was 
``Angels from the Sea'' for the Americans who arrived.
    My point is that a lot of what we're going to have to be 
able to do is come-as-you-are mission fulfillment. We have 
forces that are very nicely suited for that. I think we're 
going to need some special-purpose forces, as well, of course. 
But, there's always going to be that fine balance to strike. 
And I think it's a mistake to underestimate what we already own 
that has capability in this area.
    Admiral McGinn. I would add, Senator, that roles and 
missions are in the process of being evaluated, and will change 
in response to the climate change scenarios that have been 
discussed.
    There are three words that come to mind in dealing with 
climate change, from a national security standpoint: prevent, 
mitigate, and adapt. And I think, in particular, the U.S. 
military services can play key roles in those last two, the 
mitigation and adaptation. And they can do this in a way that 
isn't just a response to humanitarian assistance, disaster-
relief scenario, as Admiral Gunn pointed out. Certainly, that 
will be part of their roles and mission. But, I think, in a 
preventative way, in a way that works with our allies and 
people who we would want to have as allies in critical regions 
of the world, to share with them the kinds of technology, 
perhaps in renewable energy or energy efficiency, putting 
electricity where there is none, but doing it in a way that 
isn't the way we did it in a fossil-fuel-driven Industrial 
Revolution, but, rather, in new ways.
    The example I would cite was when we first went into 
Eastern Europe after the fall of the Berlin Wall, the 
Telecommunication Revolution didn't try to replicate copper, 
and string wires for telephones all over Eastern Europe--leaped 
over the copper and went right to wireless. And I think this is 
a good argument for nations, such as China and India, who 
ascribe, rightfully so--or aspire, rightfully so--to a higher 
standard of living and quality of life. And they don't have to 
do it the same way that we did it in the past hundred years. 
There are better ways to do it, without the tremendous costs to 
the globe of doing this.
    The Chairman. Couldn't agree with you more.
    Senator Shaheen, I apologize for interrupting the flow over 
to you. I'm sorry.
    Senator Shaheen. It's OK. I snuck back in.
    I would actually like to follow along this line of 
questions, because I certainly agree that the military has a 
very important role to play as we look at responding to the 
threats from global warming. And--I forget what three key words 
you used.
    Admiral McGinn. They were ``prevent, mitigate, and adapt.''
    Senator Shaheen. I guess the concern that I have, 
particularly right now, and given the urgency of what we need 
to do, is whether or not--given our commitments in Iraq and 
Afghanistan, if we have the capacity to engage our military in 
this fight. And--so, that would be my first question.
    And if the answer to that is--I guess, either way, ``yes'' 
or ``no''--what do we need to do to ensure that we do have that 
kind of support available to us?
    Admiral McGinn. Senator, I would like to start by saying 
that Iraq and Afghanistan provide fantastic opportunities for 
us to start shifting into these new areas, these new missions.
    The Marine Corps, to cite one of the services--and all the 
services are working very hard in this regard--is conducting 
studies and actually sending technology forward to Afghanistan 
to lighten the load for the expeditionary force of the Nation--
the Marine Corps--and to do it with things that bring a much 
greater level of energy efficiency, and bring in renewable 
energy, where it makes sense to do so.
    Obviously, job one has to be to carry the fight to the 
enemy, to carry the message to the people of Afghanistan, and 
to win. But, you can do that in ways that are revolutionary, in 
some sense. It isn't just pure fossil fuel--bigger diesels, 
bigger tanks. It's thinking through, What is the end state that 
we want to achieve? And I think we are--have learned, and we 
will continue to learn, a great deal, especially in such an 
austere environment, such a tenuous environment, as 
Afghanistan. I am not advocating that as a test bed or 
experiment. Certainly not. But, I think--I would commend the 
Marine Corps and Army and other services for the tremendous 
innovations they're doing as they start to think about, How can 
we do this job better, not just simply the old ways, depending 
on large amounts of fossil fuel?
    Ms. Burke. And, Senator----
    Senator Shaheen. Yes, Ms. Burke.
    Ms. Burke [continuing]. If I may, I think that, also, what 
Admiral McGinn said leads to another, broader consideration, 
which is--as of today, it looks as though the F-22 program will 
be canceled. This is just the latest reminder that the 
Department of Defense is reconsidering the ``American way of 
war.'' That's very much true on the ground, in the moment, in 
Afghanistan and Iraq. And the competencies it requires, to have 
security in those places, both the military competencies and 
then the larger whole-of-government effort that the President's 
been describing, are the same competencies that you need to 
have in order to be able to respond to the kinds of climate 
change contingencies we're talking about--failing states, 
antipiracy operations and so on. These are the kinds of 
consequences we'll see.
    So, as a matter of fact, there is a confluence of what we 
need and of what the security future looks like for us.
    So, there's that, and then also, at the same time, I think 
that the military--and these gentlemen would know far better 
than I--always has to be prepared for the next war and the next 
contingency, even if it's in the J3 and the J5, in the strategy 
and planning parts of the military. Even when we're fighting a 
war, we must be thinking about what comes next, and preparing 
for it, or we won't be ready for it. You also talked about 
that, Admiral, that the planning window for military 
infrastructure and equipment is 10 to 20 to 40 years out. So, 
if we're not thinking about what comes next in a climate change 
future, we won't be ready. And that's as serious a 
responsibility for the Nation and the Department of Defense as 
is fighting the wars that we're in today.
    Senator Warner. A short answer to your question--did you 
want to go ahead?
    Voice. No, no, please, sir.
    Senator Warner. Historically, this country has always 
helped the others. Our forces have marched forth from our 
shores hundreds of times since 1776, never to take a square 
foot of anybody else's land, simply in the cause of freedom and 
in the cause of humanity. Every President comes in, with that 
big American heart, to help those less fortunate than we. And 
our military is the only military in the world that has the 
lift capability, as Admiral Gunn said, sea capability, and 
medical, all in units that are mobile and can get into, one way 
or another, the remote places where catastrophic challenges to 
life and limb occur in great dimensions. So, our military 
stands by, and I must compliment them. Frankly, the law is on 
the books, they are doing the planning right now to take care 
of such future missions as this President and his successors 
may decide.
    Senator Shaheen. Well, certainly I would agree that they 
have an admirable record of service. And having been a 
Governor, as you pointed out, I've seen what the National Guard 
was able to do in times of crisis in the State of New Hampshire 
and across--of course, across the country. I guess I would hope 
that we can avoid, as much as possible, the need to mitigate 
and prepare.
    So, much of the--some of the discussion this afternoon has 
been around the costs of responding to climate change, and I 
guess I'd like to talk a little bit about the costs of not 
responding, of not doing enough now, and having to be in a 
catastrophic situation, years from now, maybe even only a 
couple of years from now. Have you all looked at the cost? Has 
Pew, for example, Senator Warner, looked at the cost of failing 
to act, and what that will mean?
    Senator Warner. Yes. Pew works in conjunction with many 
other organizations. I think America is fortunate that so many 
of the nonprofit--or, not-for-profit groups--Sharon's group, 
the Pew group, the admiral's group--they're all working 
together. And Pew has made some analytical studies, but it is 
extremely difficult to correlate the figure and the number.
    So, at this time, I'd have to tell you, there's not a lot 
of hard data out there of the cost of doing nothing. But, you 
certainly can start with health. We know that CO2 is 
detrimental. We know that CO2 is permeating the oceans now, and 
destroying the food sources to--in the chain of reproduction of 
the fish. And that, of course, is a valuable food all over the 
world. You can go to area after area and see that changes are 
taking place. The scientific data may be difficult to 
understand, but it's before your eyes. And I just--I'm so 
pleased--I just hope that you, personally, can work in support 
of a good bill. A fresh mind around here is a good thing to 
have among us.
    Senator Shaheen. Well, thank you. And, you know, I 
personally think this is something that we've got to address. 
And I have the good fortune of coming from a state where we've 
already joined the Regional Greenhouse Gas Initiative in the 
Northeast, and we're seeing positive effects from that, and 
also from a State where we are seeing the impact, now, of 
climate change, where we're seeing it in our forests, we're 
seeing it in maple-sugaring, in the amount of snow that we're 
getting, and how fast ice-out on our lakes happens. So, it's 
very clear, I think, to people in New Hampshire, that this is a 
challenge that we face, and we'd better respond to it.
    My concern is how we convince--as you all spoke to, the 
urgency of trying to get the American people to understand what 
we're talking about, and also of getting some of our colleagues 
here to recognize that this is something we've got to address, 
despite the regional differences that we may have.
    Senator Warner. Thank you.
    Senator Shaheen. So, thank you. And thank you all very much 
for being here.
    Senator Warner. Thank you.
    The Chairman. Thank you very much, Senator Shaheen.
    I appreciate, not just that, but the rest of your work on 
the committee, very, very much.
    I must say, Senator, when I first came here, I sat way down 
there. I used to argue, adamantly, the value of a fresh face 
and new ideas. And Senator Lugar, I think, was chairman. Now he 
and I both argue the value of experience. [Laughter.]
    And I think you've been there.
    We are very grateful to all of you. This has been a helpful 
hearing, an important one, I think, in laying some foundation, 
and raising some good questions which we need to pursue.
    We're going to leave the record open until Friday.
    Yes, Admiral.
    Admiral McGinn. Senator, if I could make one final 
observation.
    The Chairman. Sure.
    Admiral McGinn. As a newly minted admiral serving over in 
Europe as a NATO officer in the early 1990s, I was so 
encouraged, as an American, to hear about a thing called 
``Nunn-Lugar.'' It was bold, it was visionary, and it was 
bipartisan. It took from the uncertainty--in some ways, chaos--
of the post-cold-war--cold-war world, and made an initiative 
that recognized uncertain dangers; not fully understanding the 
full scope of the danger, just knowing that there was. And I 
think that, if we go back to that time in this Nation's 
history, we need the same kind of bipartisan effort and vision 
and boldness to deal with this uncertainty that is affecting 
now--and most certainly will, in significant ways, in the 
future--our Nation's security.
    And, Senator, thank you for your vision and boldness in--
along with that of your colleagues--in putting that forward. As 
a private citizen now, and as a man in uniform back then, it is 
greatly appreciated.
    The Chairman. Thank you. Appreciate that.
    Well, we're working hard to see if we can get Senator Lugar 
to be a partner in this effort. And I know he's doing his due 
diligence. And we'll see where we come out.
    Thank you all. Thanks for being here.
    We stand adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
